No. 21In the

Supreme Court of the United States
CARMEN ELECTRA, TIFFANY TOTH, GEMMA LEE,
JESSA HINTON, JESSE GOLDEN, LINA POSADA,
SHEENA LEE WEBER, HEATHER RAE YOUNG,
RACHEL KOREN, SABELLA SHAKE,
URSULA MAYES
Petitioners,
v.
59 MURRAY ENTERPRISES, INC., DBA NEW YORK
DOLLS GENTLEMEN’S CLUB, JAY-JAY CABARET,
INC., AAM HOLDING CORPORATION, DBA PRIVATE
EYES GENTLEMEN’S CLUB
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI

John V. Golaszewski
Counsel of Record
The Casas Law Firm, P.C.
1740 Broadway, 15th Floor
New York, New York
(646) 872-3178
john@talentrights.law
Counsel for Petitioners

307209

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Section 43(a) of the Lanham Act, 15 U.S.C. § 1125(a)
(1), creates a civil action in favor of “any person who
believes he or she is likely to be damaged” by another
person’s use of a trademark, or a false or misleading
representation, which: “(A) is likely to cause confusion,
or to cause mistake, or to deceive as to the affiliation,
connection or association of such person with another
person, or as to the origin, sponsorship, or approval of his
or her goods, services, or commercial activities by another
person,” or; “(B) in commercial advertising or promotion,
misrepresents the nature, characteristics, qualities, or
geographic origin of his or her or another person’s goods,
services, or commercial activities[.]” 15 U.S.C. § 1125(a)(1).
Among the purposes of this statute is “where the owner
of a trade-mark has spent energy, time, and money in
presenting to the public the product, he is protected in
his investment from its misappropriation by pirates and
cheats.” Two Pesos, Inc. v. Taco Cabana, Inc., 505 U.S.
763, 781, 82, n.15 (1992). Despite the Lanham Act’s broad
extension of a civil remedy to “any person who believes he
or she is likely to be damaged,” lower courts have divided
over whether an individual asserting a claim under section
1125(a) based on the misuse of their image, likeness, or
identity by another in an advertisement must establish
they have a “commercial interest” in their identity, or
whether they must establish a higher, unspecified, and
necessarily arbitrary level of “celebrity,” “recognition,”
or “public prominence” to sustain a claim.
The question presented is:
Must an individual prove they have a commercial
interest in their identity, or must a person prove they are

ii
recognizable, publicly prominent, or a celebrity, to bring
and sustain a claim under 15 U.S.C. § 1125(a)?

iii
LIST OF PARTIES
Pursuant to Supreme Court Rule 14.1(b)(i), the
following is a list of parties:
Plaintiffs-Appellants: Tiffany Toth, Gemma Lee
Farrell, Jessa Hinton, Jesse Golden, Lina Posada, Sheena
Lee Weber, Heather Rae Young, Rachel Koren, Sabella
Shake, Ursula Mayes, and Carmen Electra (collectively,
“Petitioners”).
Defendants-Appellees: 59 Murray Enterprises, Inc.
d/b/a New York Dolls Gentlemen’s Club; Jay-Jay Cabaret,
Inc.; AAM Holding Corporation, d/b/a Private Eyes
Gentlemen’s Club (collectively, “Respondents”).

iv
LIST OF OTHER PROCEEDINGS
Pursuant to Supreme Court Rule 14.1(b)(iii), the
following is a list of all proceedings in other courts directly
related to this case:
• Toth, et al. v. 59 Murray Enterprises, Inc., et
al. No. 15-cv-8021, U.S. District Court for the
Southern District of New York. Judgement entered
January 3, 2019.
• Electra, et al. v. 59 Murray Enterprises, Inc.,
No. 19-235, U.S. Court of Appeals for the Second
Circuit. Judgment entered February 9, 2021

v
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
LIST OF OTHER PROCEEDINGS . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
F E DE R A L S T A T U T OR Y P R O V I S ION
INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 4
A. Background and District Court Decision . . . . . 14
B. Appeal to the Second Circuit Court of
Appeals  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
C. How The Second Circuit’s Decision Has
Been Interpreted . . . . . . . . . . . . . . . . . . . . . . . . . 22
REASONS FOR GRANTING THE WRIT . . . . . . . . . 23

vi
Table of Contents
Page
I.

The Court Should Grant Review to Resolve
a Split Among Courts as to Whether
Lanham Act Protection T urns on a
Plaintiff’s commercial interest, on the one
hand, or “Celebrity,” “Public Prominence”
or “Recognizability,” on the Other.  . . . . . . . . . . 23

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

vii
TABLE OF APPENDICES
Page
A ppendi x A — opinion of the
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT, dated
	february 9, 2021 . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
Appendix b — memorandum and order
of the united states district
court for the southern district
	of new york, filed january 3, 2019 . . . . 54a
APPENDIX C — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT,
DATED APRIL 15, 2021  . . . . . . . . . . . . . . . . . . . . . 93a

viii
TABLE OF CITED AUTHORITIES
Page
Cases
Agosto v. Immigration and Naturalization
Service,
436 U.S. 748 (1978)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Allen v. Nat’l Video, Inc.,
610 F. Supp. 612 (S.D.N.Y. 1985) . . . . . . . . . . . . . . . . . 9
AMF, Inc. v. Sleekcraft Boats,
599 F.3d 341 (9th Cir. 1979) . . . . . . . . . . . . . . . . . . . . . 1
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242 (1986) . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Arnold v. Treadwell,
642 F. Supp. 2d 723 (E.D. Mich. 2009) . . . . . . . . 6, 7, 8
Audi AG v. D’Amato,
469 F.3d 534 (6th Cir. 2006) . . . . . . . . . . . . . . . . . . . . 19
Bondar v. LASplash Cosmetics,
No. 12-cv-1417, 2012 WL 6150859
(S.D.N.Y. Dec. 11, 2012)  . . . . . . . . . . . . . . .  7, 17, 18, 23
Brennan’s, Inc. v. Brennan’s Rest., L.L.C.,
360 F.3d 125 (2d Cir. 2004) . . . . . . . . . . . . . . . . . . . . . . 1
Centaur Communs., Ltd. v.
A/S/M Communs., Inc.,
830 F.2d 1217 (2d Cir. 1987) . . . . . . . . . . . . . . . . . . . . 21

ix
Cited Authorities
Page
City and County of San Francisco, Calif. v.
Sheehan,
575 U.S. 600 (2015)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Coach Services, Inc. v. Triumph Learning LLC,
668 F.3d 1356 (Fed. Cir. 2012) . . . . . . . . . . . . . . . . 7, 20
Condit v. Star Editorial, Inc.,
259 F. Supp. 2d 1046 (E.D. Cal. 2003) . . . . . . . . . . . . . 6
Dallas Cowboys Cheerleaders, Inc. v.
Pussycat Cinema, Ltd.,
604 F.2d 200, 2014 (2d Cir. 1979) . . . . . . . . . . . . .  21-22
Downing v. Abercrombie & Fitch,
265 F.3d 994 (9th Cir. 2001) . . . . . . . . . . . . . . . . . .  7, 17
E.I. duPont deNemours & Co.,
476 F.2d 1357 (CCPA 1973)  . . . . . . . . . . . . . . . . 1, 7, 20
Edmondson, et al., v.
Velvet Lifestyle, LLC, et al.,
No., 15-cv-24442, 2017 U.S. Dist. LEXIS 219419
(S.D. Fla. July 28, 2017) . . . . . . . . . . . . . . . . . . . . . 8, 13
Electra v. 59 Murray Enterprises, Inc.,
987 F.3d 233 (2d Cir. 2001) . . . . . . . . . . . . . . . . . passim
Estee Lauder, Inc. v. Gap, Inc.,
108 F.3d 1503 (2d Cir. 1997) . . . . . . . . . . . . . . . . . . . . 21

x
Cited Authorities
Page
Fischer v. Forrest,
286 F. Supp. 3d 590 (S.D.N.Y. 2018)  . . . . . . . . . . . . . . 9
Gorzynski v. JetBlue Airways Corp.,
596 F.3d 93 (2d Cir. 2010) . . . . . . . . . . . . . . . . . . . . . . 11
In re Chatam Int’l, Inc.,
380 F.3d 1340 (Fed. Cir. 2004) . . . . . . . . . . . . . . . . . . 20
In re I.AM Symbolic, LLC,
866 F.3d 1315 (Fed. Cir. 2017) . . . . . . . . . . . . . . . . . . . 7
Int’l Info. Sys. Sec. Cert. Consortium, Inc. v.
Security Univ., LLC,
823 F.3d 153 (2d Cir. 2016) . . . . . . . . . . . . . . . . . . . . . 16
Lexmark Intern., Inc. v.
Static Control Components, Inc.,
572 U.S. 118 (2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 9
Oswalt v. Resolute Indus., Inc.,
642 F.3d 856 (9th Cir. 2011) . . . . . . . . . . . . . . . . . . . . 19
Patton v. MFS/Sun Life Financial
Distributors, Inc.,
480 F.3d 478 (7th Cir. 2007) . . . . . . . . . . . . . . . . . . . . 19
Pelton v. Rexall Sundown, Inc.,
99-cv-4342 (JSM), 2001 WL 327164
(S.D.N.Y. Apr. 4, 2001)  . . . . . . . . . . . . . . . . . . . . . . . . . 6

xi
Cited Authorities
Page
Polaroid Corp. v. Polarad Elecs. Corp.,
287 F.2d 492 (2d Cir. 1961) . . . . . . . . . . . . . . . . . passim
Russello v. United States,
464 U.S. 16, 78 L. Ed. 2d 17, 104 S. Ct. 296 (1983)  . 10
Salve Regina College v. Russell,
499 U.S. 225 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Souza v. Exotic Island Enterprises,
No. 18-cv-9448, 2021 WL 3501162
(S.D.N.Y. Aug. 9, 2021) . . . . . . . . . . . . . . . . . . . 7, 20, 23
Star Indus. Inc. v. Bacardi & Co. Ltd,
412 F.3d 373 (2d Cir. 2005) . . . . . . . . . . . . . . . . . . 16, 19
Starbucks Corp. v. Wolfe Borough Coffee, Inc.,
588 F.3d 97 (2d Cir. 2009) . . . . . . . . . . . . . . . . . . . . . . 20
Stokely-Van Camp, Inc. v. Coca-Cola Co,
646 F.Supp.2d 510, 525 (S.D.N.Y. 2009)  . . . . . . . . . . 15
Toth v. 59 Murray Enterprises, Inc.,
15-cv-8028 (NRB), 2019 WL 95564
(S.D.N.Y. Jan. 3, 2019) . . . . . . . . . . . . . . . . . . . . . passim
United States v. Wong Kim Bo,
472 F.2d 720 (5th Cir. 1972) . . . . . . . . . . . . . . . . . . . . 10
W.W.W. Pharm. Co. v. Gillette Co.,
984 F.2d 567 (2d Cir. 1993) . . . . . . . . . . . . . . . . . . . . . 20

xii
Cited Authorities
Page
Waits v. Frito-Lay, Inc.,
978 F.2d 1093 (9th Cir. 1992) . . . . . . . . . . . . . . . . . . . . 8
Yeager v. Innovus Pharmaceuticals, Inc.,
No. 18-cv-397, 2019 WL 447743
(N.D. Ill. Feb. 5, 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Statutes and Other Authorities
15 U.S.C. § 1125  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
15 U.S.C. § 1125(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . passim
15 U.S.C. § 1125(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
15 U.S.C. § 1125(a)(1)(A)  . . . . . . . . . . . . . . . . . 5, 12, 13, 14
15 U.S.C. § 1125(a)(1)(B)  . . . . . . . . . . . . . . . . . . . . . . . . . . 5
15 U.S.C. § 1125(c)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Restat 3d of Unfair Competition, § 21 . . . . . . . . . . . . . . 21

1
Petitioners Carmen Electra, Tiffany Toth, Gemma
Lee Farrell, Jessa Hinton, Jesse Golden, Lina Posada,
Sheena Lee Weber, Heather Rae Young, Rachel Koren,
Sabella Shake, and Ursula Mayes respectfully seek a writ
of certiorari to review the judgment of the United States
Court of Appeals for the Second Circuit.
This case offers the Court an opportunity to bring
clarity to an aspect of trademark law of which there is
not only a deep divide in the federal courts, but which has
also gained in significance as the media landscape of this
country has evolved with the emergence of the internet
and social media. In its decision below, the Second Circuit
effectively held that only world-renowned celebrities are
entitled to protection under 15 U.S.C. § 1125(a), and that
even plaintiffs with commercial interests in their image,
likeness, and persona as marks will nevertheless be denied
a section 1125(a) Lanham Act remedy unless they can
meet some undetermined level of “public prominence,”
“recognizability,” or “celebrity.” For decades, federal
circuit courts have applied multi-factor tests to determine
whether conduct challenged under section 1125(a) are
likely to cause consumer confusion. See, e.g., Polaroid
Corp. v. Polarad Elecs. Corp., 287 F.2d 492 (2d Cir. 1961);
E.I. duPont deNemours & Co., 476 F.2d 1357, 1361 (CCPA
1973); AMF, Inc. v. Sleekcraft Boats, 599 F.3d 341 (9th Cir.
1979). In determining whether challenged advertisements
were “likely to cause confusion, or to cause mistake, or
to deceive” in satisfaction of one of the elements of a
section 1125(a) claim, these courts have repeatedly and
emphatically eschewed reliance on any single factor. See
DuPont, 476 F.2d at 1361 (“There is no litmus rule which
can provide a ready guide to all cases.”); Brennan’s, Inc.
v. Brennan’s Rest., L.L.C., 360 F.3d 125, 130 (2d Cir. 2004)

2
(“No single factor is dispositive, nor is a court limited to
consideration of only these factors.”). The Second Circuit
has now held to the contrary: that courts should rely on
only one of these factors -- in trademark terms, “strength
of mark,” but as applied by the Second Circuit and other
courts, a plaintiff’s level of “celebrity,” “recognizability,”
or “public prominence” -- to determine whether an
advertisement is likely to cause consumer confusion.
Absent celebrity status, where the mark at issue is the
plaintiff’s image or identity, the Second Circuit has now
held no claim for trademark infringement under section
1125(a) may stand despite the statutory text broadly
extending the claim to “any person who believes that he
or she is likely to be damaged” by misuse of their mark
or other false representations.
Beyond the Second Circuit’s serious errors, its
decision reflects larger confusion and divisions among
the lower courts over the proper interpretation of the
Lanham Act in cases where the trademark at issue is an
individual’s image, likeness, and identity. By granting
certiorari, this Court can provide much-needed guidance
on these persistent issues. Specifically, if this Court is of
the opinion that the statutory text and legislative history
of the Lanham Act support the interpretation that only
world-famous “celebrities” are entitled to protection for
the exploitation of their trademarks by third parties, it
should clearly and emphatically so state, and clear up
confusion that has been brewing and growing in the
federal courts for years and which will only endure absent
guidance from this Court.

3
OPINIONS BELOW
The decision of the Second Circuit Court of Appeals is
reported as Electra v. 59 Murray Enterprises, Inc., 987
F.3d 233 (2d Cir. 2001). This Order is attached at Appendix
(“Pet. App.”) at 1a. The opinion respecting rehearing en
banc is found at Pet. App. at 93a. The district court’s
opinion is published as Toth v. 59 Murray Enterprises,
Inc., 15-cv-8028 (NRB), 2019 WL 95564 (S.D.N.Y. Jan. 3,
2019) and is found at Pet. App. 54a.
JURISDICTION
The Second Circuit issued its Order on February 9,
2021 and denied rehearing on April 15, 2021. Pursuant
to the Court’s March 19, 2020 and April 15, 2020 Orders,
the deadline to file a petition for writ of certiorari was
extended from 90 days to 150 days from the date of the
judgment or order appealed from. Pursuant to the Court’s
July 19, 2021 Order rescinding the March 19th and April
15th Orders, since the Order denying rehearing was issued
prior to July 19, 2021, Petitioner’s Petition is timely, and
this Court has jurisdiction under 28 U.S.C. § 1254(1).
FEDERAL STATUTORY PROVISION INVOLVED
Section 43(a) of the Lanham Act,15 U.S.C. § 1125(a)
(1), provides as follows:
Any person who, or in connection with any
goods or services, or any container for goods,
uses in commerce any word, name, term,
symbol, or any combination thereof, or any
false designation of origin, false or misleading

4
description of fact, or misleading representation
of fact, which –
(A) is likely to cause confusion, or to
cause mistake, or to deceive as to the
affiliation, connection or association
of such person with another person,
or as to the origin, sponsorship, or
approval of his or her goods, services,
or commercial activities by another
person or
( B) i n c om me r c i a l a d ve r t i s i ng
or promotion, misrepresents the
nature, characteristics, qualities, or
geographic origin of his or her or
another person’s goods, services, or
commercial activities,
shall be liable in a civil action by any person
who believes that he or she is or is likely to be
damaged by such act.
STATEMENT OF THE CASE
This case presents a question concerning interpretation
of the Section 43(a) of the Lanham Act, codified at 15 U.S.C.
§ 1125, and seeks to resolve a significant split between
district and circuit courts concerning how likelihood of
confusion is determined in a trademark infringement
matter, and by extension, who can qualify for protection
under section 1125(a).

5
Seven years ago, in Lexmark Intern., Inc. v. Static
Control Components, Inc., this Court held that section
1125(a) “creates two distinct bases of liability: false
association, § 1125(a)(1)(A), and false advertising, §1125(a)
(1)(B).” 572 U.S. 118, 122 (2014). Despite this, certain
courts have persisted in attempting to fashion more
stringent and narrow tests for a third basis of “false
endorsement” liability. See, e.g., Electra, 987 F.3d at 257
(“To succeed on a false endorsement claim under the
Lanham Act, a plaintiff must prove (1) that the mark
… is distinctive as to the source of the good or service
at issue, and (2) that there is the likelihood of confusion
between the plaintiff’s good or service and that of the
defendant.”) (quotations and citations omitted). This has
been done at the expense of the statutory language of
section 1125(a), which prevents advertising activity likely
to cause confusion, mistake, or to deceive not just as to a
Lanham Act plaintiff’s endorsement of a defendant’s goods
and services, but rather as to advertising activity “likely
to cause confusion, or to cause mistake, or to deceive as
to the affiliation, connection or association of [plaintiff]
with [defendant], or as to the origin, sponsorship, or
approval of [defendant’s] goods, services, or commercial
activities by [plaintiff].” 15 U.S.C. § 1125(a)(1)(A). The
disregard of the statutory text of section 1125(a) in favor of
a more stringent “endorsement” inquiry has far-reaching
consequences concerning how likelihood of confusion is
gauged, who may bring a claim under section 1125(a), and
what confusion-related factors are afforded weight.
Specifically, conf licting standards with respect
to proving “celebrity,” “recognizability,” or “public
prominence” have, in some cases, constricted the
protections under section 1125(a) contrary to the broad

6
statutory text and legislative intent to protect commercial
interests in marks. Compare Toth, 2019 WL 95564, at *6
(“[A]bsent some level of recognition, there is no basis for
inferring consumer confusion regarding the sponsorship
or approval of the Clubs’ goods and services.”) and
Pelton v. Rexall Sundown, Inc., 99-cv-4342 (JSM), 2001
WL 327164, at *3-4 (S.D.N.Y. Apr. 4, 2001) (granting
defendant’s motion for summary judgment where there
was no evidence plaintiff was a “recognizable celebrity.”),
with Arnold v. Treadwell, 642 F. Supp. 2d 723, 735 (E.D.
Mich. 2009) (“The Lanham Act itself does not have a
requirement that a plaintiff is a celebrity. Instead, as noted
by the Condit court, it is designed to protect reasonable
commercial interests in marks, including identities.”)
and Condit v. Star Editorial, Inc., 259 F. Supp. 2d 1046,
1052 (E.D. Cal. 2003) (“A majority of circuits require
a commercial interest in a mark, that is, at minimum,
a present intent to commercialize a mark. Since the
Lanham Act permits protection of a mark adopted with
commercial ‘intent to use,’ not only after ‘actual use,’
and the legislature ‘. . .expects the courts to interpret
the section’ as trademark law evolves; a claimant must
at the least allege an existing intent to commercialize an
interest in identity to have standing for a Lanham Act
false association claim.”).
The theory behind the decision to engraft a “celebrity,”
“recognition,” or “public prominence” requirement on a
section 1125(a) plaintiff is that without such recognition or
prominence, that plaintiff’s “endorsement” of defendant’s
goods and services is without value. See, e.g., Electra,
987 F.3d at 258 (“[t]he misappropriation of a completely
anonymous face could not form the basis for a false
endorsement claim, because consumers would not infer
that an unknown model was ‘endorsing’ a product, as

7
opposed to lending her image to the company for a fee.”
(quoting Bondar v. LASplash Cosmetics, No. 12-cv-1417,
2012 WL 6150859, at *7 (S.D.N.Y. Dec. 11, 2012)). This
holding of Electra has already been relied upon by at
least one district court to support the proposition that
“the absence of recognition would suffice to defeat a false
endorsement claim.” Souza v. Exotic Island Enterprises,
No. 18-cv-9448, 2021 WL 3501162, at 4 (S.D.N.Y. Aug.
9, 2021) (emphasis added). Such holdings, which do not
merely emphasize the importance of “recognition” but
makes it the sine qua non of a trademark claim under
section 1125(a), cuts against decades of precedent. See,
e.g., Coach Services, Inc. v. Triumph Learning LLC, 668
F.3d 1356 (Fed. Cir. 2012) (“[F]ame cannot overwhelm
the other DuPont factors.”); In re I.AM Symbolic, LLC,
866 F.3d 1315 (Fed. Cir. 2017) (“The Board also found that
the ‘purported lack of fame’ of registrant’s marks was of
‘little consequence….’”); Treadwell, 642 F. Supp. 2d at
735. While the Federal Circuit and other federal courts
have made clear that a trademark holder’s lack of fame or
celebrity is of little or no consequence, the Second Circuit
has now held celebrity and public prominence to be the
first and last word on whether an individual is entitled to
protection for misuse of their image, likeness, or identity
under section 1125(a).
There now exists a serious divide among federal
courts on this central issue of trademark law. The Second
and Ninth Circuits (which not coincidentally cover the
major media markets in the United States) require
evidence of “recognizability”1 or “public prominence” 2
1. Downing v. Abecrombie & Fitch, 265 F.3d 994, 1007-08
(9th Cir. 2001).
2. Electra, 987 F.3d at 258.

8
for a plaintiff to succeed on a claim under section 1125(a).
Courts sitting in the Sixth, Seventh and Eleventh Circuits
have specifically rejected the proposition that “fame” or
“recognition” have any dispositive bearing on a likelihood
of confusion analysis, instead holding that what controls
is a plaintiff’s intent to commercialize her trademark.
See, e.g., Edmondson, et al., v. Velvet Lifestyle, LLC,
et al, No., 15-cv-24442, 2017 U.S. Dist. LEXIS 219419,
at * 25 (S.D. Fla. July 28, 2017) (“Courts specifically
addressing the question of whether celebrity status is
required to prevail on a Lanham Act false endorsement
claim have answered in the negative” as the operative
question is whether plaintiffs show “an existing intent to
commercialize an interest in [their] identit[ies].”) (citating
cases); Yeager v. Innovus Pharmaceuticals, Inc., No.
18-cv-397, 2019 WL 447743, at *7 (N.D. Ill. Feb. 5, 2019)
(noting the operative inquiry on a Lanham Act claim
is whether a plaintiff has a commercial interest in her
image, and holding: “Nor does Yeager need to allege he is
a celebrity to have commercial interests in his identify….
In fact, [Defendant] used Yeager’s name for commercial
interests in an advertisement promoting the product,
indicating his name did have at least some commercial
value.”); Arnold, 642 F.Supp.2d at 735 (“The Lanham
Act itself does not have a requirement that a plaintiff is
a celebrity. Instead, as noted by the Condit court, it is
designed to protect reasonable commercial interests in
marks, including identities.”). 3
3. Further emphasizing this divide -- and attendant need for
clarity from this Court -- Ninth and Second Circuit courts have also
ostensibly agreed with the reasoning of those courts who look to the
commercial interests of the plaintiff. See Waits v. Frito-Lay, Inc.,
978 F.2d 1093, 1110 (9th Cir. 1992) (holding Lanham Act standing
“extends to a purported endorser who has an economic interest

9
Cases emphasizing the commercial interests of a
Lanham Act plaintiff are in accord with the purpose of
the statute, which as set forth in its legislative history, is
two-fold:
One is to protect the public so it may be
confident that, in purchasing a product bearing
a particular trade-mark which it favorably
knows, it will get the product which it asks for
and wants to get. Secondly, where the owner
of a trade-mark has spent energy, time, and
money in presenting to the public the product,
he is protected in his investment from its
misappropriation by pirates and cheats. This is
the well-established rule of law protecting both
the public and the trade-mark owner.
Two Pesos, 505 U.S. 763, 781, 82, n.15 (1992); see also,
Lexmark, 572 U.S. at 131 (noting that the purpose of
the Lanham Act is, inter alia, to “to protect persons
engaged in … commerce against unfair competition;
[and] to prevent fraud and deception in such commerce
by the use of reproductions, copies, counterfeits, or
colorable imitations of registered marks….”). The Lanham
akin to that of a trademark holder in controlling the commercial
exploitation of his or her identity”) (citations omitted); Fischer v.
Forrest, 286 F.Supp.3d 590, 612 (S.D.N.Y. 2018) (holding that the
“strength of mark” Polaroid factor favored plaintiff where plaintiff
“has profitably marketed his product for a number of years.”) Allen
v. Nat’l Video, Inc., 610 F.Supp.612, 625 (S.D.N.Y. 1985) (noting the
Lanham Act’s underlying purpose of protecting trademarks and
“economic interests analogous to those protected by trademark
law,” including those “of the ‘trademark’ holder in the value of his
distinctive mark….”).

10
Act was not passed for the purpose of protecting only
celebrities’ images and likenesses; its purpose was to
protect investments in marks and commercial interests,
whether registered or unregistered, famous or obscure.
The Lanham Act protects both the established worldwide
celebrity and the emerging artist seeking to build her
brand. By turning Lanham Act protection exclusively
on a plaintiff’s “recognition” or “public prominence,” the
Second Circuit has ignored the black letter and legislative
history of the Lanham Act, and that portion of the Second
Circuit’s decision in Electra must be reversed.
There are, in addition, four specific points this Court
should consider on this certiorari petition:
First: application of a “celebrity,” “recognition”
or “public prominence” requirement onto a plaintiff
bringing a claim under section 1125(a) offends the plain
language and statutory scheme of the Lanham Act,
whereby Congress, in another section, 1125(c), created a
separate cause of action for trademark dilution by “the
owner of a famous mark that is distinctive . . . regardless
of the presence of absence of actual or likely confusion,
of competition, or of actual economic injury.” See 15
U.S.C. § 1125(c). The decision by some courts to now
include a “celebrity” or “public prominence,” i.e., “fame”
requirement to claims under section 1125(a) must be
analyzed considering entrenched precedent that “where
Congress includes particular language in one section of a
statute but omits it in another section of the same Act, it is
generally presumed that Congress acts intentionally and
purposely in the disparate inclusion or exclusion.” Russello
v. United States, 464 U.S. 16, 23, 78 L. Ed. 2d 17, 104 S.
Ct. 296 (1983) (quoting United States v. Wong Kim Bo,
472 F.2d 720, 722 (5th Cir. 1972)) (alteration and internal

11
quotations omitted). When Congress wants to carve out
protection for only “famous” marks, it knows how to do so.
Second: courts that have applied a “celebrity,”
“recognition” or “public prominence” requirement onto
claims under section 1125(a) have never articulated, (a)
how much recognition or prominence an individual must
demonstrate to sustain a claim under section 1125(a),
(b) how that plaintiff must go about demonstrating
that “celebrity,” “recognition,” or “public prominence,”
or (c) whether this determination is for the court as a
matter of law or for the jury as a question of fact. The
district court below awarded Carmen Electra summary
judgment on her section 1125(a) but granted defendant
summary judgment on the section 1125(a) claim of all
other Petitioners because:
[u]nlike plaintiff Electra, none of these other
plaintiffs offered evidence of significant income
earned through their various appearances. And
while these other plaintiffs have participated
in promotional campaigns for a wide variety
of brands and appeared in magazines, TV
shows, and movies, their resumes are devoid
of any evidence that they actually garnered
recognition for any of their appearances.
Toth, 2019 WL 95564, at *7. Making “income from
modeling” the primary factor on a likelihood of confusion
analysis is not only without precedent or explanation,
but on a summary judgment motion, where all facts are
construed in favor of the non-moving party,4 the conclusion
4. Gorzynski v. JetBlue Airways Corp., 596 F.3d 93, 101 (2d
Cir. 2010) (“In assessing the record to determine whether there is a

12
of the district court that no Petitioner -- some of whom have
millions of social media followers -- “actually garnered
recognition for any of their appearances,” is simply not a
sustainable conclusion, and the Second Circuit’s apparent
deference to this finding of fact should be viewed with
significant skepticism. Similarly, making “celebrity,”
“recognition,” or “prominence” the touchstone of Lanham
Act analysis invites inconsistency, as such undefined key
words fail to provide guidance to trial courts and opens
the door to ad hoc and improvisational “I know it when I
see it” analysis by trial judges, each of whom may their
own opinions concerning who is “famous” and who is not,
which itself may differ from that of the public to whom
the subject advertisements are directed.
Third: this Court should be clear that though the
issues of “celebrity,” “recognition” or “public prominence”
have ostensibly arisen in the strength of mark context,
what Electra and other cases applying these terms have
in essence done is fundamentally alter the standing
requirements under section 1125(a). Congress granted
standing under this statute to “any person who believes he
or she is likely to be damaged” by another person’s use of
a trademark, or false or misleading representations “likely
to cause confusion, or to cause mistake, or to deceive as
to the affiliation, connection or association of such person
with another person, or as to the origin, sponsorship,
or approval of his or her goods, services, or commercial
activities.” 15 U.S.C. § 1125(a)(1)(A) (Emphasis added.)
genuine issue to be tried, we are required to resolve all ambiguities
and draw all permissible factual inferences in favor of the party
against whom summary judgment is sought.” (citing Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 255 (1986).

13
Electra and other cases have now limited standing under
that statute to only the “publicly prominent,” “famous,”
and “recognizable.”
Fourth, and finally: unique to this case, and further
underscoring the divide on this issue, six of the Petitioners
here were also plaintiffs in Edmondson, wherein, a
“swingers club” was sued for the misappropriation and
misuse of professional models’ images in advertising. The
district court in Edmondson granted plaintiffs’ motion
for summary judgment on their claim under section
1125(a)(1)(A), holding that there was no material dispute
defendants’ use of plaintiffs’ images in advertising were
likely to cause consumer confusion. What this means
is that identical plaintiffs have brought identical claims
under section 1125(a)(1)(A) based on identical illicit
activity by defendants: the misappropriation of imagery to
promote a gentlemen’s or swinger’s club. A district court
in one circuit (the Eleventh) has awarded these plaintiffs
summary judgment on this claim, holding that there is
no question the use of their images was likely to cause
consumer confusion, and allowed them to proceed to trial
on the issue of damages. Another district court in another
circuit (the Second) has awarded summary judgment
to the defendants on this claim, holding that under no
circumstances could defendants’ use of those images cause
consumer confusion. These are two diametrically opposite
conclusions on the interpretation of section 1125(a), and
this divide cannot stand. See City and County of San
Francisco, Calif. v. Sheehan, 575 U.S. 600, 610 (2015) (“[C]
ertiorari jurisdiction exists to clarify the law….”).

14
A. Background and District Court Decision
Each of the eleven (11) Petitioners is a professional
model and/or actress who commercialize their mark by
licensing their image and likeness to their customers.
Each of the Petitioners’ image was used in one or more
of 37 advertisements for Respondents, three Manhattanbased so-called “gentlemen’s clubs” or “strip clubs;” New
York Dolls, Flashdancers, and Private Eyes (collectively,
the “Clubs”). Because no Petitioner ever worked at,
promoted, or was otherwise affiliated with the Clubs, or
consented to the use of her image in the Clubs’ advertising,
on October 13, 2015, Petitioners filed the underlying
lawsuit, alleging the Clubs use of each of her image(s) in
advertising violated, inter alia, the section 1125(a)(1)(A).
Petitioners alleged the Clubs’ intention in publishing the
misappropriated Images of Petitioners was to confuse or
deceive potential consumers into believing Petitioners
were strippers at one of the strip clubs, agreed to promote
or sponsor the Clubs, or were otherwise associated or
affiliated with them.
Following discovery, the parties cross-moved for
summary judgment, and by order dated January 3, 2019,
the district court granted Petitioner Carmen Electra’s
summary judgment motion on her Lanham Act claim, but
granted Respondents’ summary judgment motion as to all
other Petitioner’s claims under this statute. See Toth, 2019
WL 95564, at *7. This despite finding in the first instance
that all the advertisements were false:
Here, where the parties do not dispute that
plaintiffs never endorsed or agreed to be
associated with the Clubs, the prominent

15
display of plaintiffs’ images in the Clubs’
advertising constitutes false or misleading
representations of fact for purposes of a false
endorsement claims.
Toth, 2019 WL 95564, at *5. This holding -- that though
there was no material dispute the advertisements were
false, there was also no material dispute that these false
advertisements could possibly cause consumer confusion
-- cut against the well-established principle that, upon a
finding of falsity, “no extrinsic evidence of consumer confusion
is required.” Stokely-Van Camp, Inc. v. Coca-Cola Co, 646
F.Supp.2d 510, 525 (S.D.N.Y. 2009) (citations omitted). See also,
Merck Eprova AG v. Gnosis S.p.A., 760 F.3d 247, 259 (2d
Cir. 2014) (“In cases where … the district court has found
literal falsity, we have never required a finding of extrinsic
evidence of injury to consumers or to the plaintiff.”);
Coca-Cola Co v. Tropicana Prods., Inc., 690 F.2d 312,
317 (2d Cir. 1982) (“When a merchandising statement or
representation is literally or explicitly false, the court
may grant relief without reference to the advertisement’s
impact on the buying public.”).
The only way the district court could justify
this paradoxical holding that unquestionably false
advertisements could under no circumstances cause
confusion was by relying exclusively on its strength of
mark evaluation. See Toth, 2019 WL 95564, at *7 (“[T]he
remaining ten plaintiffs have failed to adduce evidence of
a strong mark.”). Indeed, though agreeing with Petitioners
that similarity of the marks, proximity of the products and
their competitiveness with one another, and sophistication
of consumers Polaroid factors all favored Petitioners,
the district court left no question as to the linchpin of its
analysis:

16
Ultimately, the likelihood of confusion analysis
in this case turns on whether plaintiffs are
sufficiently recognizable such that their
appearance in the advertisements is likely to
confuse consumers…. [since the non-Electra]
plaintiffs have failed to demonstrate sufficiently
strong marks… no reasonable juror could
find that the use of their images in the Clubs’
advertisements is likely to cause consumer
confusion.
Toth, 2019 WL 955654, at *10.
B. Appeal to the Second Circuit Court of Appeals
On February 9, 2021, the Second Circuit affirmed
the district court’s decision to award Carmen Electra
summary judgment and grant summary judgment to
Respondents as to each other Petitioner’s claim for socalled “false endorsement.” In determining it was only
confusion as to “endorsement” that controlled on a claim
under section 1125(a), the appeals court veered from
decades of its own precedent, which had consistently held
that that “confusion” under this statute means confusion
“of any kind, including confusion as to source, sponsorship,
affiliation, connection, or identification.” Star Indus. Inc.
v. Bacardi & Co. Ltd, 412 F.3d 373, 383 (2d Cir. 2005)
(citations omitted); see also, Int’l Info. Sys. Sec. Cert.
Consortium, Inc. v. Security Univ., LLC, 823 F.3d 153,
161 (2d Cir. 2016) (“The modern test for infringement is
whether the defendant’s use [is] likely to cause confusion
not just as to source, but also as to sponsorship, affiliation
or connection.”).

17
The Second Circuit also affirmed the district court’s
holding that recognizability was the “ultimate” question
on a “false endorsement” claim, though phrased the issue
as one of “public prominence:”
The district court properly analyzed the record
of each Appellant’s public prominence to
determine the strength of their marks, because
among other reasons, the advertisements
at issue provided no information identifying
Appellants other than their pictures. Bondar
v. LASplash Cosmetics, No. 12-cv-1417, 2012
WL 6150859, at *7 (S.D.N.Y. Dec. 11, 2012)….
Further, because the ultimate question under
Polaroid Corporation is the likelihood of
consumer confusion, the district court properly
analyzed Appellants’ recognizability. See id.
Electra, 987 F.3d at 258.
Un l i ke t he Ni nt h C i r c u it , wh ich h a s m a de
“recognizability” among the defendant’s target audience
to be the determinative factor on a strength of mark
inquiry, 5 the Second Circuit held that for a plaintiff to be
afforded Lanham Act protection, she must demonstrate
a certain undefined level of “public prominence” among,
presumably, the public writ large. This was in keeping
with prior decisions out of the Second Circuit requiring
that plaintiff be a “recognizable celebrity” to be entitled
to Lanham Act protection. See Pelton, 2001 WL 327164, at
*3-4 (granting defendant’s motion for summary judgment
where there was no evidence plaintiff was a “recognizable
5. Downing, 265 F.3d 994, 1007-08 (9th Cir. 2001).

18
celebrity.”). Such holding means that absent evidence of
a plaintiff is a “recognizable celebrity” or has achieved
“public prominence,” no juror could possibly believe that
Respondents’ advertisements -- which emblazoned images
of Petitioners on advertisements for strip clubs, inviting
patrons to come to come see the women who strip at the
Clubs, and which the district court determined as a matter
of law were false -- could cause consumer confusion.
Though certain Petitioners have appeared on the
covers of magazines, in television shows and movies,
and indisputably have millions of social media followers,
the Second Circuit nevertheless relied on dicta from
Bondar for the proposition that “[t]he misappropriation
of a completely anonymous face could not form the basis
for a false endorsement claim, because consumers would
not infer that an unknown model was ‘endorsing’ a
product, as opposed to lending her image to a company
for a fee.” Electra, 987 F.3d at 258 (quoting Bondar, 2012
WL 6150859, at *7) (emphasis added).6 Such holding not
6. The Second Circuit cites Bondar for precisely the opposite
conclusion of what that district court in that case actually held,
which was that Section 43(a) prohibits any person from making a
misrepresentation, in connection with an item in commerce, which
is “likely to cause confusion . . . as to the origin, sponsorship, or
approval of his or her goods, services, or commercial activities
by another person,” and that it thus “does not require celebrity,
only a likelihood of consumer confusion.” Bondar, 2012 WL
6150859 at *7 (emphasis added). While the Bondar noted as dicta
that that “the misappropriation of a completely anonymous face
could not form the basis for a false endorsement claim, because
consumers would not infer that an unknown model was ‘endorsing’
a product, as opposed to lending her image to a company for a fee,”
it ultimately held that “there is a level of consumer recognition
short of celebrity — as the term is usually understood — capable of

19
only affirmed the district court’s decision that liability
under section 1125(a) turned exclusively on the issue of
“recognition” or “public prominence,” but also made clear
that the Second Circuit has eschewed the black letter of
the section 1125(a) and decades of its own precedent and
had decided that confusion as to “endorsement” was the
only inquiry under section 1125(a).7
In addition: Circuit courts around the country have
repeatedly held that a court of appeals will undertake
de novo review of grants of summary judgment. See,
e.g., Oswalt v. Resolute Indus., Inc., 642 F.3d 856, 859
(9th Cir. 2011) (“We review de novo the district court’s
grant of summary judgment.”); Audi AG v. D’Amato, 469
F.3d 534, 543 (6th Cir. 2006) (same); Patton v. MFS/Sun
Life Financial Distributors, Inc., 480 F.3d 478, 485 (7th
Cir. 2007) (same). Accord, Agosto v. Immigration and
Naturalization Service, 436 U.S. 748, 756 (1978) (noting
that “summary judgment principles are controlling
here,” the court of appeals erred in refusing to allow a
de novo review of a citizenship claim). In diminishing the
long-standing test for consumer confusion, as set forth in
Polaroid, to the single factor of “public prominence” and
deferring completely to the district court on this issue, the
Second Circuit ignored this precedent. See Salve Regina
College v. Russell, 499 U.S. 225, 238 (1991) (“When de
causing consumer confusion. The strength of a mark is normally a
question of fact, and there is no reason to depart from this practice
here.” Id.(emphasis added).
7. See Star Indus., 412 F.3d at 383 (2d Cir. 2005) (“confusion”
under section 1125(a) means confusion “of any kind, including
confusion as to source, sponsorship, affiliation, connection, or
identification.”).

20
novo review is compelled, no form of appellate deference
is acceptable.”). Accord, Coach Services, Inc. v. Triumph
Learning LLC, 668 F.3d 1356 (Fed. Cir. 2012) (“Although
we review the Board’s findings as to the DuPont factors for
substantial evidence, we review its overall determination
of likelihood of confusion without deference.” (citing In re
Chatam Int’l, Inc., 380 F.3d 1340, 1342 (Fed. Cir. 2004).
Though the Second Circuit did provide a single sentence on
each of the Polaroid factors of “actual confusion” and “bad
faith,” Electra, 987 F.3d at 258, it has long been held that
actual confusion is not necessary to satisfy the likelihood
of confusion element of a Lanham Act claim, see Starbucks
Corp. v. Wolfe Borough Coffee, Inc., 588 F.3d 97, (2d Cir.
2009) (“[A]ctual confusion is not necessary to establish
likelihood of confusion….”), and that, contrary to the
district court’s “bad faith” analysis, “deliberate copying
may indicate that the defendant acted in bad faith.” Id.8
Since as per Electra and Souza (discussed immediately
infra), likelihood of confusion now turns exclusively on a
plaintiff’s “recognizability” or “public prominence,” it
bears noting that for decades the Second Circuit (in
line with courts around the country) had focused any
strength of mark inquiry on the inherent distinctiveness
of a plaintiff’s mark and not just the public’s recognition
of that mark. See W.W.W. Pharm. Co. v. Gillette Co., 984
F.2d 567, 572-73 (2d Cir. 1993) (Turning on its “‘originindicating’ quality in the eyes of the purchasing public,”
a mark’s strength is assessed using two factors: (1) the
8. Although the district court granted Carmen Electra’s
motion for summary judgment, it declined to either award her
damages or allow her to proceed to trial to prove damages, a
decision which the Second Circuit, declining to undertake de novo
review, affirmed. Electra, 987 F.3d at 237, n.7.

21
degree to which it is inherently distinctive; and (2) the
degree to which it is distinctive in the marketplace. . .
In evaluating a mark’s strength, a court is permitted to
consider the mark’s secondary meaning, that is, the extent
to which the public has come to identify the mark with a
particular product. However, lack of secondary meaning
does not preclude a court from finding that an otherwise
distinctive mark is strong.”) (citations omitted, emphasis
added); see also Centaur Communs., Ltd. v. A/S/M
Communs., Inc., 830 F.2d 1217, 1225 (2d Cir. 1987) (“The
strength of a mark is its tendency to identify the goods
sold as emanating from a particular source, even when the
source is unknown to the consumer.”) (emphasis added,
citation omitted). Making Lanham Act protection turn
exclusively on the recognition or public prominence of the
mark is a significant diversion from these long-standing
principles, from which necessarily emanate significant
complications.
The Second Circuit had also, for decades, made
clear that “[t]he strength of a mark measures the degree
of distinctiveness for the purpose of determining the
likelihood of confusion resulting from another’s use of a
similar mark.” Estee Lauder, Inc. v. Gap, Inc., 108 F.3d
1503, 1510 (2d Cir. 1997) quoting Restat 3d of Unfair
Competition, § 21, cmt. i. But defendants in this case did
not use a mark “similar” to Petitioners’ marks; rather, they
admittedly used images of Petitioners in their advertising,
i.e., exact copies of Plaintiffs’ marks.
Finally, the decision to turn section 1125(a) analysis
on “recognition,” “celebrity,” or “prominence” cuts against
decades of Second Circuit precedent as set forth in Dallas
Cowboys Cheerleaders, Inc. v. Pussycat Cinema, Ltd., 604

22
F.2d 200, 2014 (2d Cir. 1979), which made clear 40 years ago
that “[t]he public’s belief that the mark’s owner sponsored
or otherwise approved the use of the trademark satisfies
the confusion requirement.” The Second Circuit did not
state that it “satisfies the confusion requirement” if and
only if the mark’s owner was a “recognized celebrity”
or a had achieved some undisclosed level of “public
prominence.” It stated that if the public believes the
mark’s owner “sponsored or otherwise approved” the use
of the trademark, the confusion requirement is “satisfied.”
Considering this, the question here is: would a jury,
reviewing the subject advertisements, believe that the
“mark’s owner” (i.e., Plaintiffs) “sponsored or otherwise
approved the use of the trademark (i.e., their image and
likeness)” in the Clubs advertising? Plaintiffs submit that
it is difficult to envision how a jury could not reach that
conclusion.
C. How The Second Circuit’s Decision Has Been
Interpreted
Leaving no question as to how Electra is being
interpreted, last month, the Southern District of New York
applied Electra in a case involving the misappropriation
and misuse of the images and likenesses of professional
models in advertising. In so doing that district court
could not have been clearer that, as per Electra, the only
operative inquiry pertains exclusively as to recognizability:
In Electra, the Second Circuit affirmed this focus
on evidence of recognizability as the bottom line, stating
that “because the ultimate question under Polaroid
Corporation is the likelihood of consumer confusion,
the district court properly analyzed [the plaintiffs’]

23
recognizability.” 987 F.3d at 258. Indeed, the Second
Circuit strongly suggested that the absence of evidence
of recognition would suffice to defeat a false endorsement
claim, quoting a district court’s reasoning that “[t]he
misappropriation of a completely anonymous face could
not form the basis for a false endorsement claim, because
consumers would not infer that an unknown model was
‘endorsing’ a product, as opposed to lending her image to
a company for a fee.” Id. (quoting Bondar v. LASplash
Cosmetics, No. 12-cv-1417, 2012 WL 6150859, at *7
(S.D.N.Y. Dec. 11, 2012). Thus, the Court views Plaintiffs’
recognizability as a critical requirement to sustain their
false endorsement claims, and begins its analysis of
the strength of Plaintiffs’ marks by assessing whether
Plaintiffs have adduced evidence that they are recognized.
Souza, 2021 WL 3501162, at 4. (emphasis added).
The reliance on a single factor to determine likelihood of
confusion cuts against decades of precedent in the Second
Circuit and Circuit courts around the country.
REASONS FOR GRANTING THE WRIT
I.

The Court Should Grant Review to Resolve a
Split Among Courts as to Whether Lanham Act
Protection Turns on a Plaintiff’s commercial
interest, on the one hand, or “Celebrity,” “Public
Prominence” or “Recognizability,” on the Other.

There is a profound divide among federal courts
concerning interpretation of section 1125(a) and who
may bring and sustain a claim under this statute. This
divide turns on whether a plaintiff must provide evidence
of “celebrity,” “recognizability,” or “public prominence.”

24
As detailed herein, courts in three Circuits specifically
reject the proposition such evidence is required to bring
or sustain a claim under section 1125(a), as Lanham Act
standing and recovery turns on a plaintiff’s commercial
interests in their trademark. Courts in two other Circuits,
including the Electra court, hold that neither standing
nor recovery will be afforded an individual who seeks to
protect against the illicit exploitation of their mark unless
they provide evidence of “celebrity,” “recognizability,” or
“public prominence.”
Absent review from this Court, this divide on this
central issue of Lanham Act standing and interpretation
will persist and deepen.
CONCLUSION
This Court should grant certiorari.
Dated: September 13, 2021
				Respectfully submitted,
John V. Golaszewski
Counsel of Record
The Casas Law Firm, P.C.
1740 Broadway, 15th Floor
New York, New York
(646) 872-3178
john@talentrights.law
Counsel for Petitioners

APPENDIX

1a
Appendix A — Appendix
opinionAof the UNITED
STATES COURT OF APPEALS FOR THE SECOND
CIRCUIT, dated february 9, 2021
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Docket No. 19-235
CARMEN ELECTRA, TIFFANY TOTH, GEMMA
LEE, JESSA HINTON, JESSE GOLDEN, LINA
POSADA, SHEENA LEE WEBER, HEATHER RAE
YOUNG, RACHEL KOREN, SABELLA SHAKE,
URSULA MAYES,
Plaintiffs-Appellants,
v.
59 MURRAY ENTERPRISES, INC., DBA NEW
YORK DOLLS GENTLEMEN’S CLUB, JAY-JAY
CABARET, INC., AAM HOLDING CORPORATION,
DBA PRIVATE EYES GENTLEMEN’S CLUB,
Defendants-Appellees.1
January 8, 2020, Argued
February 9, 2021, Decided
Before: KEARSE, CALABRESI, and POOLER, Circuit
Judges.
1. The Clerk of Court is directed to amend the caption as
above.

2a
Appendix A
Appeal from grant of summary judgment of the
United States District Court for the Southern District
of New York (Naomi R. Buchwald, J.) to DefendantsAppellees 59 Murray Enterprises, Inc., AAM Holding
Corp., and Jay-Jay Cabaret, Inc. Plaintiffs-Appellants
Carmen Electra, Tiffany Toth, Gemma Lee, Jessa Hinton,
Jesse Golden, Lina Posada, Sheena Lee Weber, Heather
Rae Young, Rachel Koren, Sabella Shake, and Ursula
Mayes allege that Appellees unlawfully used photographs
of them to advertise strip clubs owned by Appellees in
violation of New York Civil Rights Law §§ 50 and 51 . The
district court held that Appellants’ signing of full releases
of their rights to the photographs defeated their claims.
We conclude that the terms of Shake and Hinton’s release
agreements are disputed material facts, and Appellees
concede that neither they nor the third-party contractors
that created and published the advertisements secured
legal rights to use any of the photographs at issue. We hold
that the summary judgment to Appellants on liability. We
thus vacate the judgment in part and remand for further
proceedings.
Appellants also appeal from the district court’s order
concluding that Appellants had not accepted an offer of
judgment pursuant to Federal Rule of Civil Procedure 68.
We hold that the district court correctly concluded they
had not accepted the offer because the offer’s settlement
amount term was ambiguous, the parties disagreed over
how to interpret the term, and there was accordingly no
meeting of the minds.

3a
Appendix A
Appellants further appeal from the district court’s
grant of summary judgment to Appellees as to their
Lanham Act, 15 U.S.C. § 1125(a), New York General
Business Law Section 349, and libel claims. We hold that
the district court correctly dismissed these claims.
Affirmed in part, vacated in part, and remanded.
POOLER, Circuit Judge:
Plaintiffs-Appellants Carmen Electra, Tiffany Toth,
Gemma Lee, Jessa principally challenge the district
court’s July 26, 2017 order rejecting their Hinton, Jesse
Golden, Lina Posada, Sheena Lee Weber, Heather Rae
Young, Rachel Koren, Sabella Shake, and Ursula Mayes
(collectively, “Appellants”) appeal from so much of a final
judgment of the United States District Court for the
Southern District of New York (Naomi R. Buchwald, J.)
as dismissed their claims under New York Civil Rights
Law Sections 50 and 51, the Lanham Act, 15 U.S.C.
§ 1125(a), New York General Business Law Section 349, and
New York libel law, alleging that Defendants-Appellees
59 Murray Enterprises, Inc., AAM Holding Corp., and
Jay-Jay Cabaret, Inc. unlawfully used photographs of
Appellants without their consent to advertise Appellees’
strip clubs. Appellants attempt to have judgment entered
in their favor pursuant to Federal Rule of Civil Procedure
68 for $660,000, and its January 3, 2019 order granting
summary judgment to Appellees.
The district court held that Appellants’ signing of full
releases of their rights to the photographs defeated their

4a
Appendix A
claims. We conclude that the terms of Shake and Hinton’s
release agreements are disputed material facts, and
Appellees concede that neither they nor the third-party
contractors that created and published the advertisements
secured legal rights to use any of the photographs at issue.
We hold that the district court erred in granting summary
judgment to Appellees and in denying summary judgment
to Appellants on liability. We thus vacate the judgment in
part and remand for further proceedings.
We also hold that the district court correctly rejected
Appellants’ purported acceptance of the offer of judgment
pursuant to Federal Rule of Civil Procedure 68 because
the offer’s settlement amount term was ambiguous, the
parties disagreed over how to interpret the term, and there
was accordingly no meeting of the minds. We further hold
that the district court did not err in its grant of summary
judgment to Appellees as to Appellants’ Lanham Act, 15
U.S.C. § 1125(a), New York General Business Law Section
349, and libel claims.
BACKGROUND
I. 	Factual Background
Appellants are professional models, actresses, and
businesswomen who commercially promote their image
and likeness to various clients, brands, and media outlets,
or have done so previously. Their images have appeared
in a variety of magazines, advertising campaigns, and
other publications. Several Appellants have appeared in
film and television programs, and many of them have a
large social media following.

5a
Appendix A
59 Murray Enterprises, Inc., AAM Holding Corp., and
Jay-Jay Cabaret, Inc. (collectively, “the Club Companies”
or “Appellees”) individually own and operate various
strip clubs in New York City, including New York Dolls
Gentlemen’s Club, Private Eyes Gentlemen’s Club, and
Flashdancers Gentlemen’s Club (collectively, “the Clubs”).
Barry Lipsitz is the sole owner of 59 Murray Enterprises
and a partial owner of AAM Holding and Jay-Jay Cabaret.
Lipsitz’s son, Barry Albert Lipsitz (“Albert”), was the
manager of the Clubs during the relevant time period.
The gravamen of Appellants’ complaint is that, between
2013 and 2015, the Club Companies used Appellants’
“[i]mages for commercial purposes in order to promote
their Clubs by and through various marketing and
promotional mediums,” including the Clubs’ website and
social media accounts, “without the prior consent of any”
of the Appellants. App’x at 87.
Appellants attached the challenged advertisements to
their second amended complaint (“SAC”), and a selection
of the advertisements is appended to this opinion. The
advertisements were varied in form, purpose, and content,
but each combined a prurient photograph of one or more
of the Appellants, the logo or name of one of the Clubs,
and promotional text. For instance, a photograph of Koren
and Shake appeared on the website for New York Dolls
Gentlemen’s Club with text advertising an “exclusive
Black & White Party experience reserved for NYC’s elite
party goers, athletes, celebrities & business moguls,”
App’x at 115. A photograph of Lee appeared on webpages
advertising employment opportunities for two of the Clubs.
A photograph of Hinton, with text stating “Welcome to
the New Flashdancers,” App’x at 123-27, appeared on the

6a
Appendix A
Flashdancers website, and its Twitter, Facebook, and
Instagram accounts. Similarly, a photograph of Golden
appeared in an advertisement for a Halloween party
at Private Eyes Gentlemen’s Club, and a photograph of
Mayes appeared in an advertisement offering a freeadmission “VIP pass” to the “Newly Remodeled” New
York Dolls club. App’x at 120. The advertisements did not
name the models.
Appellants were never asked to authorize the use
of their images in the Clubs’ advertisements, and they
never entered into release agreements with the Club
Companies authorizing such use. They never received
nor were offered compensation for the use of their images
in the advertisements. No Appellant ever performed,
or agreed to perform, services for the Clubs. Indeed,
Appellants contend that they do not endorse the Clubs or
strip clubs generally and would never agree to appear at
the kinds of events or perform the activities promoted in
the advertisements.
Each Appellant previously entered into agreements
releasing their rights to photographs in which they appear
as models, and the record includes release agreements
relating to at least some of the photographs at issue in
this litigation. As explained in further detail below, the
district court correctly held that the one-year statute of
limitations applicable in actions under Section 51 of New
York’s Civil Rights Law barred the claims of all but six of
Appellants. We accordingly focus on the record of releases
to the photographs of Appellants with timely claims: Lee,
Mayes, Koren, Shake, Hinton, and Golden.

7a
Appendix A
The advertisements using Lee’s image used a
photograph taken by J Squared Photography for
Dreamgirl Lingerie (“Dreamgirl”). Lee signed a release
granting Dreamgirl, as well as “its legal representatives
and assigns, the exclusive and absolute right and
permission . . . to purchase, own, assign, license, transfer,
sell, distribute, copyright, use, reuse, publish, republish,
exhibit, display, produce and reproduce, print and
reprint” the photograph, “or to authorize others to do
any of the foregoing, in any and all media now existing or
hereafter developed, and in any and all forms or formats
of distribution.” App’x at 2199. The release explicitly
authorized use “for any commercial or noncommercial
purpose whatsoever,” App’x at 2199, and “waive[d] any
claim that [Lee] may at any time have to the eventual
use to which such Images may be applied,” App’x at 2200.
The advertisement using Mayes’s image also used a
photograph originally shot for Dreamgirl. Mayes entered
into a release for the photograph with Dreamgirl that
mirrors, in relevant part, Dreamgirl’s release agreement
with Lee. 2
The advertisement using Koren’s and Shake’s
images used a photograph taken for Fastdates.com
in which they are both featured. Koren entered into
a release for the photograph with Gianatsis Design
Associates that “authorize[d] the use and reproduction, by
Gianatsis Design Associates or Jim Gianatsis or anyone
2. While initially disputing the fact, Appellants conceded
before the district court that one of the release agreements in the
record applied to the image of Mayes at issue.

8a
Appendix A
authorized by Gianatsis Design Associates, of any and
all photographs” taken of her at the photoshoot for “any
purpose whatsoever, without further compensation,” and
provided that the photographs would be the property
of Gianatsis Design Associates “solely and completely.”
App’x at 2204. The parties agree that Shake entered into
a release for the image, but the content of that release
agreement is not in the record.
Rule 56.1 The statement advertisements that Hinton
featuring signed Hinton’s this release image in used
connection photographs with originally shot for Forplay,
a costume and lingerie company. Hinton testified that
while she had previously signed a release in connection
with a photoshoot with Forplay, she did not always do so,
and she did not recall whether she signed a release for
the photograph used in the advertisements at issue. The
record includes a release agreement that Hinton signed
with Forplay. This release agreement provides that
Hinton gives “for all time to Forplay Catalog, Inc. its heirs,
legal representatives and assigns, for those whom Forplay
Catalog, Inc. is acting, and those acting with its authority
and permission the unrestricted right and permission to
copyright and/or exploit in any way” the photographs “for
illustration, art, promotion, sale, advertising, trade, or any
other purpose whatsoever,” and further, that “all rights
to the Images belong to Forplay Catalog, Inc.” App’x at
2214. Though Appellants did not dispute in Appellees’
photographs contained at Exhibits E and F in the SAC,
these exhibits are labeled as advertisements featuring
the images of Koren and Shake.

9a
Appendix A
Lastly, the advertisements featuring Golden’s image
used photographs originally shot for Leg Avenue. The
parties agreed before the district court that Golden
entered into a modeling contract with Leg Avenue
that included a release agreement that applied to the
photographs at issue. This release provides that Golden
“irrevocably assign[s] to Leg Avenue, Inc. and its legal
representatives, successors, agents, assigns, and all
persons or corporations acting with its permission
. . . , without restriction, without further compensation to
[her], and for any purpose whatsoever, the unrestricted
rights to copyright, use, publish, sell, or distribute” the
photographs. App’x at 1630.
The Club Companies used third-party contractors
to create the advertisements and publish them on the
Clubs’ websites and social media, including Paul Brown
and his company, Internet Management Corporation
(“IMC”), which designed the Clubs’ websites and provided
advertising services to the Clubs, and Melange Media
Group LLC (“Melange”), which created and ran the Clubs’
social media accounts. Albert, Lipsitz’s son, served as the
contact person between the contractors and the Clubs. 3
Brown and Lipsitz testified that they believed IMC was
responsible for the publication of all the advertisements at
issue, except for the advertisement using the photograph
of Carmen Electra, which was published by Melange.
3. Though the parties agree that Lipsitz was not involved in
the creation of the advertisements, the parties dispute whether
Albert provided advertising copy for some of the advertisements
or merely informed the third-party contractors of the purposes
of the events to be promoted in the advertisements.

10a
Appendix A
Brown admitted that he “couldn’t put a lot of weight in that
though because some of these images I don’t recognize. I
would have no idea.” App’x at 271, 503. Appellants dispute
that IMC was responsible for nearly all the images, as
many of the images were posted on the Clubs’ social media
accounts, which were Melange’s responsibility. The parties
nevertheless agree that the Clubs never asked Melange
or IMC to use a photograph of a specific person, instead
requesting photographs that would complement the
advertised event or the purpose of a particular webpage.
Though the photographs at issue were taken for a
number of different companies, Brown averred that he
thought that all the photographs IMC posted on the Clubs’
websites came from catalogs of images that Forplay would
send to IMC each month. Even if the photographs did
not originate from the Forplay catalog, however, Brown
averred that the photographs would have come from
another source that informed IMC that the photographs
“could be freely used because all the rights to the photos
had been conveyed.” Affidavit of Paul Brown at 3, Toth v.
59 Murray Enters., Inc., No. 15-cv-8028 (S.D.N.Y. 2019),
ECF No. 108.
Brown averred that he believed he had a legal right
to use each image and that he would never intentionally
post an image without the legal right to do so. The same
affidavit states that Brown told Lipsitz and Albert that
he had releases from Forplay for the photographs that
IMC used in the advertisements. Both Lipsitz and Albert
declared that they believed IMC had a legal right to use
the photographs. However, Brown was unable to find any
release from Forplay granting him or IMC the right to

11a
Appendix A
use Forplay images, and Appellees never asked Brown
for written confirmation that IMC had the rights to use
the photographs. Though Lipsitz testified that he believed
IMC had an agreement allowing IMC to use Forplay’s
images, he did not actually see this agreement. At oral
argument on appeal, Appellees conceded that the thirdparty contractors failed to secure the legal rights to use
the images by license, assignment, or any other means.
Appellants’ tax returns show that their income either
increased or remained approximately the same from 2009
to 2016. Appellees did not gain any additional profits
from the use of the images, and there is no evidence of an
increase in the Clubs’ revenue attributable to the special
events promoted by some of the advertisements.
II. 	Procedural History
On October 15, 2015, Appellants filed a complaint
alleging, inter alia, that Appellees’ use of the photographs
in advertisements without written consent violated their
statutory right of privacy and publicity under New York
Civil Rights Law §§ 50-51, constituted false endorsement
under Section 43 of the Lanham Act, 15 U.S.C. § 1125(a)
(1), was a deceptive trade practice under New York
General Business Law Section 349(h), and constituted libel
under New York law.4 Appellants sought compensatory
and punitive damages, a permanent injunction barring
Appellees from the use of Appellants’ images in
4. The complaint brought four other causes of action,
including (1) negligence; (2) conversion; (3) unjust enrichment; and
(4) quantum meruit. Appellants voluntarily dismissed those claims.

12a
Appendix A
advertisements promoting the Clubs, and attorneys’ fees
and costs.
On June 15, 2017, Appellees served a “Rule 68 Offer
of Judgment” (the “Offer of Judgment”) on Appellants
pursuant to Federal Rule of Civil Procedure 68. The Offer
of Judgment stated in relevant part as follows:
Pursuant to Rule 68 of the Federal Rules of
Civil Procedure, Defendants hereby offer
to Plaintiffs collectively to take a judgment
against Defendants in the amount of $82,500.00,
inclusive of interest, costs and attorneys’ fees,
and without any admission of liability, on
each of the Causes of Action contained in the
Complaint, based upon facts existing as of the
date of acceptance of the offer. . . . If Plaintiffs
do not accept this offer, in writing, within 14
days after service of this offer upon him, this
offer will be deemed rejected.
App’x at 24-25. On June 27, 2017, Appellants returned
to Appellees a document entitled “Plaintiffs’ Acceptance
of Defendants’ Rule 68 Offer of Judgment” (hereinafter
“Acceptance Reply” or “Reply”), which stated as follows:
PLEASE TAKE NOTICE that, pursuant to
Rule 68 of the Federal Rules of Civil Procedure,
Plaintiffs hereby accept Defendants [sic] June
15, 2017 offer to allow judgment to be taken
against Defendants “in the amount of $82,500,
inclusive of interest, costs and attorneys’ fees,
and without admission of liability, on each of the

13a
Appendix A
Causes of Action contained in the Complaint
based upon facts existing as of the date of
acceptance of the offer.” (Exhibit A).
PLEASE TAKE FURTHER NOTICE that, as
set forth in Plaintiffs’ January 31, 2016 Second
Amended Complaint (Dkt. 18; Exhibit B,
¶¶ 118-183), as of the date of Defendants’ Offer
of Judgment, Plaintiffs had eight (8) Causes of
Action against Defendants.
PLEASE TAKE FURTHER NOTICE that
Plaintiffs hereby accept a total of six hundred
and sixty thousand dollars ($660,000.00),
inclusive of interest, costs and attorneys’ fees,
for full and final settlement of all eight (8)
Causes of Action contained in the Complaint
based upon facts existing as of the date of
acceptance of the offer.
App’x at 27-28.
Although the Rules provide that if the Rule 68 offer
has been accepted “either party may then file the offer
and notice of acceptance, plus proof of service,” and that
the “clerk must then enter judgment,” Fed. R. Civ. P. 68(a),
no such judgment was actually entered in the present
case. Following receipt of Appellants’ Reply, Appellees
filed in the district court on July 5 a letter urging that no
judgment be entered in accordance with the Reply because
in Appellees’ Rule 68 Offer “[t]he figure of $660,000 was
not mentioned . . . and was clearly not contemplated;
rather, $82,500 was intended to dispose of the entire case,”

14a
Appendix A
and Appellants’ counsel was “well aware of Defendants’
stated intent based on written communications among
counsel that directly preceded the offer.” App’x at 30.
Appellees’ counsel stated that prior to the Rule 68 Offer,
when “counsel discussed settlement[,] Defendants offered
$82,500 to dispose of the entire case.” App’x at 31. After
“Plaintiffs[] countered by demanding $800,000,” defense
counsel “advised that the amount demanded was too high
to counter,” and “[b]y a June 15th email, a copy of which is
annexed hereto, . . . advised that rather than countering
the demand [they] would be filing an offer of judgment for
the same amount previously offered; i.e., $82,500.” App’x
at 31. Appellees attached to their letter the June 15 email
referred to, which stated, “We are going to file an offer of
judgment for the amount previously offered.” App’x at 33.
On July 7, 2017, Appellants filed with the district court
a letter opposing Appellees’ July 5 request to decline filing
the judgment proposed by Appellants. Appellants argued
that the $82,500 referred to in the Rule 68 Offer expressly
applied to “each” of the complaint’s causes of action, App’x
at 39 (emphasis in original), and urged the district court
to disregard “extrinsic evidence,” App’x at 39-40 (citing
Steiner v. Lewmar, Inc., 816 F.3d 26, 35 (2d Cir. 2016)).
On July 26, 2017, the district court declined to enter
Appellants’ proposed judgment, reasoning that the offer
was ambiguous and citing the district court’s supervisory
authority over the case. 5
5. Our Court subsequently dismissed Appellants’ appeal from
this order on the basis that it was not an immediately appealable
collateral order. Electra v. 59 Murray Enters., Inc., No. 16-cv-

15a
Appendix A
A fter further litigation, Appellants moved for
summary judgment on their claims and for “such other
and further relief as [the] Court deems just and proper.”
Motion for Summary Judgment at 1, Toth v. 59 Murray
Enters., Inc., No. 15-cv-8028 (S.D.N.Y. 2019), ECF No.
79. Appellants’ further submissions, including their
memorandum of law and a letter accompanying the
summary judgment motion, explained that Appellants
sought summary judgment on their compensatory
damages based on the fair market value of the images,
as well as a permanent injunction prohibiting Appellees
from using Appellants’ images. Appellees cross-moved
for summary judgment and moved to strike the report
and testimony of Appellants’ proposed damages expert,
Stephen Chamberlin. On January 3, 2019, the district
court struck Chamberlin’s report and testimony as
speculative and based on unreliable methodology, and
it granted summary judgment to Appellees on all of
Appellants’ claims.
As to Appellants’ claims under New York Civil Rights
Law §§ 50-51, the district court concluded that Lee,
Koren, Shake, Mayes, Hinton, and Golden had brought
suit within one year of the publication of the challenged
advertisements, but that the claims of the other Appellants
were time-barred under the applicable one-year statute
of limitations. See N.Y. C.P.L.R. § 215(3). As to the six
Appellants whose claims were not time-barred, the
district court held that they could not sue under Section
51 because they signed full releases of their rights to the
8028, 2017 U.S. App. LEXIS 24177, 2017 WL 5714513 (2d Cir.
Nov. 21, 2017).

16a
Appendix A
images. Accordingly, the district court dismissed the
complaint and entered judgment for Appellees. Appellants
timely appealed.
DISCUSSION
I.

Rule 68 Offer of Settlement
Federal Rule of Civil Procedure 68 provides:
[A] party defending against a claim may serve
on an opposing party an offer to allow judgment
on specified terms, with the costs then accrued.
If, within 14 days after being served, the
opposing party serves written notice accepting
the offer, either party may then file the offer
and notice of acceptance, plus proof of service.
The clerk must then enter judgment.

Fed. R. Civ. P. 68(a).
“Rule 68 offers of judgment and acceptances thereof
are contracts to be interpreted according to ordinary
contract principles.” Steiner, 816 F.3d at 31. Appellants
argue, however, that we have stated that “Rule 68 offers
of judgment . . . are different from other contract offers
in that they carry legal consequences: a party that
rejects a Rule 68 offer may be subject to the cost-shifting
provision of Rule 68(d) if it does not obtain a more favorable
judgment,” id., and that under the doctrine of contra
proferentem, “ambiguities in the language of a Rule 68
offer of judgment are to be construed against the party

17a
Appendix A
making the offer,” Lilly v. City of New York, 934 F.3d 222,
236 (2d Cir. 2019) (internal quotation marks and citation
omitted).
“The primary goal of contract interpretation is to
effectuate the intent of the parties as manifested by the
language used in the contract.” Steiner, 816 F.3d at 34
(internal quotation marks and citation omitted). This
Court’s exposition of ambiguity under contract law in the
Rule 68 context in Goodheart Clothing Co., Inc. v. Laura
Goodman Enterprises, Inc. is instructive:
If a writing, or the term in question, appears to
be plain and unambiguous on its face, its meaning
must be determined from the four corners of the
instrument without resort to extrinsic evidence
of any nature. On the other hand, if the term
in question does not have a plain meaning it
follows that the term is ambiguous. Contract
language is ambiguous if it is reasonably
susceptible of more than one interpretation,
and a court makes this determination by
reference to the contract alone. Conversely,
contractual language is unambiguous if it has
a definite and precise meaning, unattended by
danger of misconception in the purport of the
contract itself, and concerning which there is
no reasonable basis for a difference of opinion.
962 F.2d 268, 272 (2d Cir. 1992) (internal quotation
marks, brackets, and citations omitted and alterations
incorporated). “In determining whether the contract is

18a
Appendix A
ambiguous, a court looks at the contract as a whole in
light of the circumstances present when the contract was
entered.” Steiner, 816 F.3d at 33 (internal quotation marks
and citation omitted).
Appellants argue that the district court erred in
concluding that Appellants had not accepted Appellees’
Offer of Judgment, arguing that (1) the contract
unambiguously offered $660,000; and (2) even if the offer
was ambiguous, our case law requires that the offer
must be construed against the offeror, without looking
to extrinsic evidence. In response, Appellees argue that
the offer was ambiguous, and this ambiguity rendered the
offer inoperative. “We review de novo a district court’s
interpretation of a Rule 68 offer.” Steiner, 816 F.3d at 31;
see also Goodheart, 962 F.2d at 273 (“[I]nterpretation
of a contract generally is a question of law, subject to de
novo review.”).
Preliminarily, we note that it is inapt to apply the
doctrine of contra proferentem to this case because that
doctrine assumes the existence of a contract about which
there is some dispute as to one or more terms. Contra
proferentem is intended to be an interpretive methodology
of last resort:
[I]f, after all of the other guides to interpretation
have been exhausted and the court concludes that
there remain two reasonable interpretations
of the contract, with each party knowing or
having reason to know of the other party’s
understanding of the term, the court should

19a
Appendix A
as a policy matter, assuming it is clear that the
parties have indeed attempted to enter into
a contract, choose the interpretation that is
adverse to the party that drafted the contract.
U.S. Naval Inst. v. Charter Commc’ns, Inc., 875 F.2d
1044, 1050 (2d Cir. 1989) (quoted in 5 Corbin on Contracts
§ 24.27 (2020)). To apply contra proferentem to the
threshold question of whether an enforceable contract
existed—i.e., to whether there was mutual assent to be
bound—would be the antithesis of its generally accepted
purpose as an interpretive tiebreaker of last resort.
Here, for the reasons discussed below, there simply was
no meeting of the minds: plaintiffs’ purported acceptance
of the Offer of Judgment is more properly construed as a
counteroffer because it changed the most essential term
of the Offer of Judgment—the dollar amount offered.
Without a valid acceptance, there is no contract; without a
contract, there is no need to interpret its purported terms;
without the need for interpretation, there is no need to
apply an interpretive methodology of last resort. While
our cases have approved of applying contra proferentem
to validly accepted Rule 68 offers, none has done so where,
as here, there was such a fundamental misconstrual of the
terms offered by the Appellees that it was impossible to
conclude that a contract existed at all.
For a valid Rule 68 agreement to have been formed,
there must have been a “meeting of the minds” under
elementary principles of contract law. See, e.g., Mallory
v. Eyrich, 922 F.2d 1273, 1279-80 (6th Cir. 1991); Johnson

20a
Appendix A
v. Univ. Coll. of Univ. of Ala. in Birmingham, 706 F.2d
1205, 1209 (11th Cir. 1983); Radecki v. Amoco Oil Co., 858
F.2d 397, 400 (8th Cir. 1988) (“To decide whether there has
been a valid offer and acceptance for purposes of Rule 68,
courts apply the principles of contract law.”); Steiner, 816
F.3d at 31 (“Rule 68 offers of judgment and acceptances
thereof are contracts to be interpreted according to
ordinary contract principles”).
“The plain purpose of Rule 68 is to encourage
settlement and avoid litigation. . . . The Rule prompts both
parties to a suit to evaluate the risks and costs of litigation,
and to balance them against the likelihood of success upon
trial on the merits.” Marek v. Chesny, 473 U.S. 1, 5, 105
S. Ct. 3012, 87 L. Ed. 2d 1 (1985). With respect to a suit
seeking money damages, the process requires that the
plaintiff, who can total his damages and the costs already
incurred, be able to “compar[e] th[at] sum to the amount
offered.” Id. at 7. “Thus, Rule 68 offers must provide ‘a
clear baseline from which plaintiffs may evaluate the
merits of their case relative to the value of the offer.’”
Basha v. Mitsubishi Motor Credit of Am., Inc., 336 F.3d
451, 455 (5th Cir. 2003) (quoting Thomas v. Nat’l Football
League Players Ass’n, 273 F.3d 1124, 1130, 348 U.S. App.
D.C. 220 (D.C. Cir. 2001); see also, e.g., Stanczyk v. City
of New York, 752 F.3d 273, 283 (2d Cir. 2014) (“Rule 68
offers . . . must be capable of comparison to the judgment
ultimately obtained[.]” (citation omitted)).
The Rule 68 process does not work if the dollar
amount offered is not clear. For example, where a Rule
68 offer included a monetary component for the plaintiff’s

21a
Appendix A
claimed “actual damages” that would be an amount that
“the attorneys for the parties [were to] agree[] upon [as]
reasonable,” rather than specifying that amount in the
offer, Basha, 336 F.3d at 454 (internal quotation marks
and alterations omitted), the offer did not comport with
the Rule, and entry of a Rule 68 judgment was properly
denied:
Because the offer purported to settle all claims,
yet failed to quantify damages, . . . mutual
assent did not exist between the parties.
Moreover, such a vague offer of judgment did
not provide Basha with a clear baseline to
evaluate the risks of continued litigation. To
hold otherwise would be to strip Rule 68 of its
purpose.
Id. at 455 (emphasis added); see also Thomas, 273 F.3d at
1130 (explaining that “an unallocated offer of judgment to
multiple plaintiffs is not effective under Rule 68” because
no plaintiff would have been presented with a number
against which to compare his or her likely recovery).
We conclude that Appellees’ Rule 68 Offer of Judgment
was, indeed, ambiguous. As the district court noted, the
sentence in the Rule 68 offer reading, “Defendants hereby
offer to Plaintiffs collectively to take a judgment against
Defendants in the amount of $82,500.00 . . . on each of the
Causes of Action contained in the Complaint,” App’x at 24,
is reasonably susceptible to more than one interpretation
because the word “collectively” contradicts the use of the
word “each.” The Rule 68 offer therefore was ambiguous

22a
Appendix A
in its most crucial term: the amount of settlement.
Appellants’ arguments to the contrary simply ignore this
contradiction and are accordingly unconvincing.
An offer that states a dollar amount to be specified
in the judgment but does so using language that would
permit the defendant to argue later that the offer was
for a different amount has no Rule 68 validity. Appellants
here point out that if they had simply stated that they
accepted Appellees’ Offer of Judgment without attempting
an explanation or elaboration, Appellees would have
been free to point to the offer’s reference to each cause
of action, and to contend that they were entitled to have
Appellants pay post-offer costs if after trial Appellants
recovered any sum less than $660,000. Appellants’ Br.
at 70. Plainly the Rule was not intended to provide a
defendant with such a double-edged sword—enabling
him to argue that plaintiffs could not receive more than
$82,500 if they accepted the Rule 68 offer, but could be
held liable for post-offer costs if they won any amount less
than $660,000. Neither was the Rule intended to allow a
plaintiff, who knows that the specified sum in the offer is
the defendant’s intended ceiling, to insist that the Rule
68 judgment be entered for a higher amount than the one
specified in the offer.
In sum, because the Rule 68 offer was ambiguous as to
what dollar amount the Appellees were offering—i.e., as
to the most fundamental aspect of the proposed contract,
the amount to be specified in the judgment—the Offer
of Judgment was not a proper Rule 68 offer. There was
here no mutual assent; Appellees’ Offer of Judgment was

23a
Appendix A
of no effect under Rule 68; the district court properly
refused to enter the judgment proposed by Appellants;
and Appellants are not subject to the costs-shifting
consequences that would have occurred if Appellees’ Offer
of Judgment had been a proper Rule 68 offer.
Because the parties never reached agreement on a
settlement amount, the district court correctly refused
to resolve ambiguities in Appellants’ favor and enter
judgment for Appellants pursuant to their purported
acceptance of the Rule 68 offer. We therefore affirm the
July 26, 2017 order of the district court.
F i n a l ly, e ven i f we we r e t o conc lude t h at ,
notwithstanding the fundamental ambiguity in the Offer
of Judgment, a Rule 68 contract had somehow been formed
calling for a Rule 68 judgment in the amount of $660,000,
we would uphold the district court’s refusal to enter such a
judgment on the ground that Appellees should be allowed
to avoid the contract on the basis of mistake. Although
unilateral mistake is generally not an impediment to the
formation of a contract, it may in some circumstances allow
the party that made the mistake to avoid the contract.
“Where a mistake of one party at the time a contract
was made as to a basic assumption on which he made
the contract has a material effect . . . that is adverse to
him,” and “the other party had reason to know of the
mistake,” “the contract is”—except in circumstances not
existing here—”voidable by him.” Restatement (Second) of
Contracts § 153(b) (1981); see also 5 Corbin on Contracts
§ 24.27 (2020) (“When the terms of a written contract have
been authored by one of the parties and merely assented

24a
Appendix A
to by the other, this fact will in some cases influence the
interpretation that the court will give to these terms.
After the court has examined all of the other factors that
affect the search for the parties’ intended meaning, . . .
there may yet remain a question as to what meaning was
intended and should be given effect. This uncertainty may
be so great that the court should hold that no contract
exists.” (emphasis added)).
In the context of a Rule 68 judgment, for example,
where a defendant intended to make a Rule 68 offer
of judgment in the amount of $500 but because of a
typographical error offered $500,000, which was accepted
by plaintiffs in a case in which they had made no money
demand prior to filing suit, the complaint alleged that
that defendant had caused actual damage only in the
amount of $3,600, and they were “shocked” by the offer
when it was received, the Rule 68 judgment for $500,000
was properly set aside on the ground that there was no
Rule 68 contract because there had been no meeting of
the minds. See Whitaker v. Associated Credit Servs., Inc.,
946 F.2d 1222, 1223-25 (6th Cir. 1991).
The circumstances surrounding Appellees’ Rule 68
offer here support the district court’s refusal to enter a
Rule 68 judgment. Appellees made their formal Rule 68
offer of $82,500 only after making an informal offer to
settle the entire case for that amount. Appellants rejected
the informal offer and made a counteroffer to settle for
$800,000. Appellees then rejected that counter-offer in
a June 15, 2017 email to Appellants’ counsel, and in that
email stated, “We are going to file an offer of judgment

25a
Appendix A
for the amount previously offered.” App’x at 33. On that
same day, Appellants made the Offer of Judgment at issue
here. Appellants have not disputed, either in the district
court or here, that this was the sequence of events, or
that they received and understood the June 15 email. This
undisputed record reveals that Appellants knew Appellees
intended to have a Rule 68 judgment entered that required
them to pay Appellants collectively a total of $82,500. As
Appellants attempted to have such a judgment entered
only in the amount of $660,000, the parties never reached
agreement on a specific amount.
II. Claims Under New York Civil Rights Law § 51
“We review a district court’s grant of summary
judgment de novo.” Brandon v. Kinter, 938 F.3d 21, 31 (2d
Cir. 2019). For summary judgment to be warranted, the
movant must “show[] that there is no genuine dispute as to
any material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). “Material facts
are those which might affect the outcome of the suit under
the governing law, and a dispute is genuine if the evidence
is such that a reasonable jury could return a verdict for
the nonmoving party.” Coppola v. Bear Stearns & Co., 499
F.3d 144, 148 (2d Cir. 2007) (internal quotation marks and
citation omitted). “In reviewing the district court’s grant
of summary judgment, we must construe the facts in the
light most favorable to the non-moving party and must
resolve all ambiguities and draw all reasonable inferences
against the movant.” Brandon, 938 F.3d at 31 (internal
quotation marks and citation omitted).

26a
Appendix A
A. 	New York Civil Rights Law §§ 50-51
Though New York courts do not recognize a common
law action for invasion of privacy, Sections 50 and 51 of the
New York Civil Rights Law provide for a limited statutory
right of privacy. Messenger v. Gruner + Jahr Printing &
Publ’g, 208 F.3d 122, 125 (2d Cir. 2000). Under Section 50,
it is a misdemeanor to “use[] for advertising purposes, or
for the purposes of trade, the name, portrait or picture of
any living person without having first obtained the written
consent of such person . . . .” N.Y. Civ. Rights Law § 50.
Section 51 authorizes a private right of action for damages
and injunctive relief for those injured by a violation of
Section 50, providing in relevant part as follows:
Any person whose name, portrait, picture or
voice is used within this state for advertising
purposes or for the purposes of trade without
the written consent first obtained as above
provided [in Section 50] may maintain an
equitable action in the supreme court of this
state against the person, firm or corporation
so using his name, portrait, picture or voice, to
prevent and restrain the use thereof; and may
also sue and recover damages for any injuries
sustained by reason of such use . . . .
N.Y. Civ. Rights Law § 51. To establish liability under
Section 51, a plaintiff “must demonstrate each of four
elements: (i) usage of plaintiff’s name, portrait, picture,
or voice, (ii) within the state of New York, (iii) for
purposes of advertising or trade, (iv) without plaintiff’s

27a
Appendix A
written consent.” Molina v. Phx. Sound Inc., 297 A.D.2d
595, 747 N.Y.S.2d 227, 230 (App. Div. 1st Dep’t 2002)
(citation omitted). “A name, portrait or picture is used
‘for advertising purposes’ if it appears in a publication
which, taken in its entirety, was distributed for use in, or
as part of, an advertisement or solicitation for patronage
of a particular product or service,” Beverley v. Choices
Women’s Med. Ctr., Inc., 78 N.Y.2d 745, 751, 587 N.E.2d
275, 579 N.Y.S.2d 637 (1991) (citation omitted), and is
used for purposes of trade if it “involves use which would
draw trade to the firm.” Kane v. Orange Cty. Publ’ns.,
232 A.D.2d 526, 649 N.Y.S.2d 23, 25 (App. Div. 2d Dep’t
1996). Because the statute was “drafted narrowly to
encompass only the commercial use of an individual’s name
or likeness and no more,” Finger v. Omni Publ’ns. Int’l,
Ltd., 77 N.Y.2d 138, 141, 566 N.E.2d 141, 564 N.Y.S.2d 1014
(1990) (internal quotation marks and citation omitted), the
statute’s terms are “to be narrowly construed and strictly
limited to nonconsensual commercial appropriations of the
name, portrait or picture of a living person.” Messenger,
208 F.3d at 125 (internal quotation marks and citation
omitted).
New York courts hold that Section 51 also protects a
statutory right of publicity. See Brinkley v. Casablancas,
80 A.D.2d 428, 438 N.Y.S.2d 1004, 1012 (App. Div. 1st Dep’t
1981); see also Gautier v. Pro—Football, Inc., 304 N.Y. 354,
359, 107 N.E.2d 485 (1952). Section 51 “has been applied in
cases . . . where the picture of a person who has apparently
never sought publicity has been used without his or her
consent for trade or advertising purposes. In such cases
it has been noted that the statute serves to protect the

28a
Appendix A
sentiments, thoughts and feelings of an individual.”
Stephano v. News Grp. Publ’ns., Inc., 64 N.Y.2d 174,
182, 474 N.E.2d 580, 485 N.Y.S.2d 220 (1984) (internal
quotation marks and citations omitted). Yet, Section 51 “is
not limited to situations where the defendant’s conduct has
caused distress to a person who wishes to lead a private
life free of all commercial publicity.” Id. at 183. Because
Section 51 “applies to any use of a person’s picture or
portrait for advertising or trade purposes whenever the
defendant has not obtained the person’s written consent
to do so,” the statute also applies in cases seeking to
vindicate the statutory right of publicity—those in which
“the plaintiff generally seeks publicity, or uses his name,
portrait, or picture, for commercial purposes but has not
given written consent for a particular use.” Id.
In Arrington v. New York Times Co., the Court
of Appeals held that allegations that a photograph
distributor sold the plaintiff’s image to a newspaper
without the plaintiff’s consent sufficed to state a claim for
nonconsensual commercialization of an image for purposes
of trade. 55 N.Y.2d 433, 443, 434 N.E.2d 1319, 449 N.Y.S.2d
941 (1982). Soon thereafter, the New York legislature
amended Section 51 to expressly permit lawful sales or
transfers of images by adding the following provision:
[N]othing contained in this article shall be
so construed as to prevent any person, firm
or corporation from selling or other wise
transferring any material containing such
name, portrait, picture or voice in whatever
medium to any user of such name, portrait,

29a
Appendix A
picture or voice, or to any third party for sale or
transfer directly or indirectly to such a user, for
use in a manner lawful under this article . . . .
N.Y. Civ. Rights Law § 51.
Accordingly, in actions under Section 51 challenging
the sale or transfer of an image from an image distributor
to a third party, or a third party’s use of an image, courts
generally assess whether such use or transfer is lawful
by looking to the text of the relevant written release
agreement. See, e.g., Delaney v. Newsday, Inc., No.
90-6007, 1991 WL 95125, at *1-2 (N.Y. Sup. Ct. Jan. 28,
1991); see also Spiegel v. Schulmann, 604 F.3d 72, 78 (2d
Cir. 2010); Krupnik v. NBC Universal, Inc., 37 Misc. 3d
1219[A], 964 N.Y.S.2d 60, 2010 NY Slip Op 52462[U], 2010
WL 9013658, *3-5 (N.Y. Sup. Ct. 2010). “Under New York
law, a defendant’s immunity from a claim for invasion of
privacy is no broader than the consent executed to him.”
Spiegel, 604 F.3d at 77 (internal quotation marks and
citation omitted). “Where the plaintiff’s consent is limited
with respect to form or forum, the use of the plaintiff’s
photograph is without consent if it exceeds the limitation.”
Id.; see also Shields v. Gross, 58 N.Y.2d 338, 344, 448
N.E.2d 108, 461 N.Y.S.2d 254 (1983) (“The statute acts to
restrict an advertiser’s prior unrestrained common-law
right to use another’s photograph until written consent is
obtained. Once written consent is obtained, however, the
photograph may be published as permitted by its terms.”
(citation omitted)).

30a
Appendix A
B. 	The Terms of the Release Agreements for
Shake’s and Hinton’s Photog raphs A re
Disputed
It is conceded that the Club Companies used
Appellants’ pictures within the state of New York for
the purposes of advertising or trade, see Molina, 747
N.Y.S.2d at 230, and Appellees do not argue that any
exceptions apply. Further, it is undisputed that the Club
Companies lacked written consent from Appellants to
use their images in Club advertisements. For use of the
photographs in the Club Companies’ advertisements to be
lawful, then, we look to the terms of the releases for each
photograph. “A release is a contract, and its construction
is governed by contract law.” Warmhold v. Zagarino, 144
A.D.3d 672, 40 N.Y.S.3d 499, 500 (App. Div. 2d Dep’t 2016)
(internal quotation marks and citation omitted). Whether
a Section 51 plaintiff entered into a release agreement
and the terms of such an agreement, however, are factual
questions. See, e.g., Taggart v. Wadleigh--Maurice, Ltd.,
489 F.2d 434, 438 (3d Cir. 1973); Alvidrez v. Roberto Coin,
Inc., 6 Misc. 3d 742, 791 N.Y.S.2d 344, 347 (Sup. Ct. 2005).
The district court granted Appellees summary
judgment after finding that each Appellant with a timely
Section 51 claim—Lee, Koren, Shake, Mayes, Hinton, and
Golden—had entered into a “comprehensive” release that
“grant[ed] the releasee unlimited rights to the use of the
images at issue.” Toth v. 59 Murray Enters., Inc., No. 15cv-8028, 2019 U.S. Dist. LEXIS 1355, 2019 WL 95564, at
*3, *11 (S.D.N.Y. Jan. 3, 2019). Appellants argue that the
district court erred in so finding because the record did
not contain releases for the images at issue. We agree.

31a
Appendix A
It is undisputed that Lee, Koren, and Mayes
entered into agreements releasing all their rights to the
photographs and authorizing assignment, license, or use
of the photographs by third parties. Appellants argue
that there is no release in the record for the photograph of
Golden, and Appellees offer no argument to the contrary
before this Court. But the parties plainly agreed before
the district court that “Golden executed an exclusive
contract with Leg Avenue in conjunction with a release
by which she assigned the rights to the photographs at
issue, without limitation, to Leg Avenue,” App’x at 2218.
This release assigned all rights to the photograph to the
releasee Leg Avenue, as well as its “successors, agents,
assigns, and all persons or corporations acting with its
permission . . . , without restriction . . . .” App’x at 1630.
Appellants cannot now argue that the release for Golden’s
photograph creates a material dispute of fact.
While the parties agree that Shake entered into
a release for the photograph at issue, this release is
not in the record. The parties dispute the terms of the
release, including whether the releasee would receive all
proprietary rights to the image or be able to use the image
for any purpose. Shake testified that she understood that
the photographs covered by the release were to be used
only for a calendar that Fastdates created.
Further, while Appellants did not dispute Appellees’
statement in their Rule 56.1 filing that “Hinton signed a
release in connection with the photographs depicted in
Exhibits E and F,” App’x at 2214, these exhibits are labeled
as advertisements featuring the images of Koren and
Shake, not Hinton. Hinton testified that she did not always
sign releases for photographs with Forplay, and she did

32a
Appendix A
not recall whether she signed a release for the photograph
used in the advertisements at issue. Appellants contend
on appeal that the record does not include the release that
Hinton signed for the photograph, and Appellees concede
this point, arguing only that Hinton testified that she
did not know if the release in the record pertained to the
images at issue in the case.
In summary, though there was no dispute of material
fact raised relating to the releases for the photographs of
Lee, Koren, Mayes, and Golden, the terms of the releases
for the photographs of Shake and Hinton present disputed
questions of material facts. We thus vacate the district
court’s grant of summary judgment to Appellees on the
claims of Shake and Hinton.
C.

Whether the Releases Bar Appellants’ Section
51 Claims

Relying on the release agreements in the record, the
district court concluded that Appellants had executed
agreements releasing all their proprietary rights to the
photographs and authorizing releasees to allow third
parties to use the photographs for any purpose. The
district court held that the release agreements disclaimed
Appellants’ rights to challenge the use of the photographs,
barring Appellants’ Section 51 claims. In a footnote, the
district court suggested that though it did not need to
address the question of whether the releases constituted
“written consent” for purposes of Section 51, it was
“inconsistent” with the statute “for plaintiffs that have
signed unlimited releases to rely on the absence of written
consent in pursuing damages under that statute.” Toth,
2019 U.S. Dist. LEXIS 1355, 2019 WL 95564 at *11 n.14.

33a
Appendix A
Appellants contend that this was an error of law,
arguing that Appellees lacked written consent from
Appellants, the releasees, or anyone else to use the images;
that Appellees were not third-party beneficiaries of the
release agreements; and that the release agreements did
not constitute written consent for purposes of Section 51.
We agree.
Under New York law, “the terms of a contract may
be enforced only by contracting parties or intended
third-party beneficiaries of the contract . . . .” Rajamin
v. Deutsche Bank Nat. Tr. Co., 757 F.3d 79, 86 (2d Cir.
2014). Here, both parties agree that the Club Companies
and their contractors—including Brown, IMC, and
Melange—were not parties to the releases, and that there
are no other agreements between Appellants and the Club
Companies or their contractors authorizing the use of the
photographs. In addition, Appellees conceded during oral
argument that the contractors secured no legal rights
to use the photographs, such as through an assignment
or license. Appellees and their contractors are plainly
not third-party beneficiaries of the release agreements.
See State of Cal. Pub. Emps.’ Ret. Sys. v. Shearman &
Sterling, 95 N.Y.2d 427, 434, 741 N.E.2d 101, 718 N.Y.S.2d
256 (2000) (explaining that a “party asserting rights as a
third-party beneficiary must establish,” inter alia, “that
the contract was intended for his benefit”). Appellees
therefore had no legal rights under the releases or any
subsequent agreement to use the images and cannot rely
on the releases to bar Appellants’ claims.
We further conclude that the releases are not written
consent for purposes of Section 51. The text of the statute

34a
Appendix A
requires a party to have “written consent” to use the
image, though it allows “sale or transfer” of the image “for
use in a manner lawful under” Section 51. N.Y. Civ. Rights
Law § 51. As case law demonstrates, written consent in
favor of one party does not allow others to use an image for
trade or advertising. See, e.g., Chambers v. Time Warner,
No. 00-cv-2839, 2003 U.S. Dist. LEXIS 3065, 2003 WL
749422, at *4 (S.D.N.Y. Mar. 5, 2003). This is true no
matter how broadly an agreement releases proprietary
rights to the releasee. In Rosemont Enterprises, Inc. v.
Urban Systems, Inc., for example, the New York Supreme
Court held—in an action under Section 51 brought by
Howard Hughes against the maker of “The Howard
Hughes Game”—that Hughes’s “exclusive assignment of
the right to exploit the Hughes name and personality” to
another party did not defeat the claim. 72 Misc. 2d 788, 340
N.Y.S.2d 144, 144, 147 (Sup. Ct. 1973), aff’d as modified, 42
A.D.2d 544, 345 N.Y.S.2d 17 (App. Div. 1st Dep’t 1973). The
court explained that Hughes was “free to protect himself
from the exploitation of his name and likeness against all
the world except [the assignee]. It is only between them
will that assignment constitute a defense to a similar law
suit.” Id. at 147.
A cause of action under Section 51 does not depend
on the proprietary rights a plaintiff has in a particular
image. In Gautier v. Pro-Football, Inc., the Appellate
Division explained that Section 51 provides “primarily
a recovery for injury to the person, not to his property
or business.” 278 A.D. 431, 106 N.Y.S.2d 553, 560 (App.
Div. 1st Dep’t 1951), aff’d, 304 N.Y. 354, 107 N.E.2d 485.
Gautier continued,

35a
Appendix A
True, where an individual’s right of privacy has
been invaded there are certain other elements
which may be taken into consideration in
assessing the damages. Thus, where a cause of
action under the Civil Rights statute has been
established, damages may include recovery
for a so-called ‘property’ interest inherent
and inextricably interwoven in the individual’s
personality, but it is the injury to the person
not to the property which establishes the cause
of action. That is the focal point of the statute.
Id. (citation omitted).6 The district court’s conclusion that
the release agreements defeated Appellants’ claims would
6. Such reasoning has long precedent in New York courts.
Shortly after the statute was first passed into law, the New York
Court of Appeals recognized in Rhodes v. Sperry & Hutchinson
Co. that ownership of an image and right to use the image for
purposes of trade or advertising are distinct:
[A]s to pictures whose ownership remained in the
person represented at the time when the act took
effect, or portraits subsequently made, a transfer
of ownership no longer conveys the right to use the
picture for advertising purposes, unless the written
consent of the person portrayed shall have been given.
The acquisition of such pictures by itself does not
carry with it the right to use them for advertising or
trade purposes, except with the written consent of the
person represented; but the statute in no wise forbids
the transfer of the right so to use them, provided that
right is conferred by a written consent to that effect.
193 N.Y. 223, 230-31, 85 N.E. 1097 (1908), aff’d, 220 U.S. 502, 31
S. Ct. 490, 55 L. Ed. 561 (1911).

36a
Appendix A
construe Section 51 claims as coextensive with claims
for breach of contract: only the releasees, who retained
proprietary interest in the image, could sue. But this
is wrong, even in this “modern era” of the internet. Cf.
Gautier, 304 N.Y. at 360. “Section 51 of the Civil Rights
Law was not enacted . . . to supplement causes of action
based on contracts . . . .” Gautier, 106 N.Y.S.2d at 560-61.
Thus, Lee’s and Mayes’ releases in favor of Dreamgirl,
Koren’s release in favor of Gianatsis Design Associates,
and Golden’s release in favor of Leg Avenue do not
constitute written consent for all others to use their images
for purposes of advertising or trade. That their releases
conveyed their proprietary rights to the photographs
does not defeat their claims, because their cause of action
under Section 51 is based on their statutory rights, not
their proprietary rights in the photographs. And while the
releases could provide a defense in an action against the
releasees or those who could assert lawful use by reason
of assignment or license, Appellees concede that they had
no legal rights to the images. Appellants therefore have
established that Appellees used their images without
written consent, and they are entitled to summary
judgment as to Appellees’ liability under Section 51.
D.

Section 51 Remedies

Section 51 authorizes private parties to seek injunctive
relief, compensatory damages “for any injuries sustained”
because of the unconsented use of their picture, and
exemplary damages if the defendant knowingly used the
picture “in such manner as is forbidden or declared to be
unlawful” by Section 50. N.Y. Civ. Rights Law § 51.

37a
Appendix A
The district court held that even if the comprehensive
releases for the photographs at issue did not defeat
Appellants’ Section 51 claims, their claims should
nevertheless be dismissed because Appellants failed to
establish entitlement to damages. Having found Lee,
Koren, Shake, Mayes, Hinton, and Golden entitled to
summary judgment on liability under Section 51, we turn
to the district court’s alternative basis for dismissal.
Appellants argue that the district court erred in
striking the report of their damages expert, Stephen
Chamberlin, and that Appellants were entitled to prove
damages at trial. Appellees respond that that (1) the
district court correctly struck Chamberlin’s report, and
(2) Appellants’ Section 51 claims fail because they failed
to adduce any evidence of damages. Though we conclude
that the district court correctly excluded Chamberlin’s
damages report, we also conclude that this is not fatal to
Appellants’ Section 51 claims.
“The decision to admit expert testimony is left to the
broad discretion of the trial judge and will be overturned
only when manifestly erroneous.” Zerega Ave. Realty
Corp. v. Hornbeck Offshore Transp., LLC, 571 F.3d 206,
213 (2d Cir. 2009). Federal Rule of Evidence 702 provides
that a person “qualified as an expert by knowledge, skill,
experience, training, or education” can offer opinion
testimony if:
(a) the expert’s scientific, technical, or other
specialized knowledge will help the trier of fact
to understand the evidence or to determine a
fact in issue;

38a
Appendix A
(b) the testimony is based on sufficient facts
or data;
(c) the testimony is the product of reliable
principles and methods; and
(d) the expert has reliably applied the principles
and methods to the facts of the case.
Fed. R. Evid. 702. (To decide “whether a step in an
expert’s analysis is unreliable, the district court should
undertake a rigorous examination of the facts on which
the expert relies, the method by which the expert draws
an opinion from those facts, and how the expert applies
the facts and methods to the case at hand.” Amorgianos
v. Nat’l R.R. Passenger Corp., 303 F.3d 256, 267 (2d Cir.
2002). “A district court has discretion under Federal Rule
of Evidence 703 to determine whether the expert acted
reasonably in making assumptions of fact upon which he
would base his testimony.” Boucher v. U.S. Suzuki Motor
Corp., 73 F.3d 18, 21 (2d Cir. 1996) (internal quotation
marks and citations omitted). “Although expert testimony
should be excluded if it is speculative or conjectural, or
if it is based on assumptions that are so unrealistic and
contradictory as to suggest bad faith or to be in essence
an apples and oranges comparison, other contentions that
the assumptions are unfounded go to the weight, not the
admissibility, of the testimony.” Id. (internal quotation
marks and citations omitted.)
In light of these principles, we conclude that the district
that court did not abuse its discretion in excluding the

39a
Appendix A
Chamberlin Report as speculative and methodologically
unreliable. The Chamberlin Report states that it
“established a fair market fee for the use of each Model’s
image, taking into account each Plaintiff’s payment
history over the course of her or his career, as well as the
Model’s work quality, experience, exposure, and duration
of career.” App’x at 430. Relying on this fair market fee,
the Chamberlin Report generated damages assessments
for Lee ($175,000), Koren ($40,000), Mayes ($100,000),
Shake ($30,000), Hinton ($270,000), and Golden ($85,000),
and for the other appellants (in varying amounts). But
the “payment history” the Chamberlin Report relies on
is derived in part from contractual agreements that paid
Appellants for substantially more than what Appellants
seek compensation for here—namely, the fair market value
of a single photoshoot. For example, the Chamberlin Report
extrapolated from Lee’s agreement to conduct multiple
film and photoshoots and up to 20 days of promotional
appearances for $25,000 that her “working day rate”—the
fee a model would receive for eight hours of work—would
be at least $25,000. App’x at 436, 2277-78. Similarly, the
Chamberlin Report derived Koren’s daily fee based on her
contract to serve as a company ambassador, a role that
included a photoshoot, video interview, and public relations
obligations. In addition, though Chamberlin admitted
that there is typically “one license and one payment” for
each photoshoot, App’x at 2259, the Chamberlin Report
made its damages calculation by multiplying the working
day rate by the number of ways in which the photographs
were used. This methodology resulted in calculations of
damages amounts far greater than the actual amount
Appellants received for the photographs in the first

40a
Appendix A
instance. Because the Chamberlin Report therefore
systematically overestimated the fair market value of the
photographs at issue, we find no abuse of discretion in the
district court’s decision to strike it.
We nevertheless conclude that the exclusion of the
Chamberlin Report is not fatal to Appellants’ claims. The
SAC alleges that Appellees “violated N.Y. Civil Rights Law
§§ 50-51 by invading Plaintiffs’ privacy, misappropriating
their likeness, and publishing altered Images of Plaintiffs
which made it appear as though Plaintiffs were employed
at one or more of the Clubs, or endorsed one or more of the
Clubs.” App’x at 90. As to relief, the SAC states as follows:
Due to Defendants’ violation of Plaintiffs’ rights
of privacy and publicity under sections 50 and
51 of the N.Y. Civil Rights Act, Plaintiffs [have]
been damaged in an amount to be determined
at trial, but in all events not less than seventyfive thousand dollars ($75,000.00), exclusive of
punitive and exemplary damages.
In addition, and pursuant to section 51 of
the N.Y. Civil Rights Act, Plaintiffs hereby
request[] an Order permanently enjoining
Defendants from violating Plaintiffs’ right to
privacy and publicity.
In addition, and likewise pursuant to section
51 of the N.Y. Civil Rights Act, Plaintiffs
hereby request an award of punitive damages,
in an amount to be determined at trial, due to

41a
Appendix A
Defendants knowing and intentional violation of
their statutory rights to privacy and publicity.
App’x at 91. Appellants thus brought suit under Section
51 seeking not just compensatory damages, but also
injunctive relief. Appellants reiterated that they sought
equitable relief during oral argument before the district
court on their summary judgment motion, as well as in
their motion papers. Thus, Appellants can proceed at a
minimum with their action to seek a permanent injunction.
Cf. Onassis v. Christian Dior-New York, Inc., 122 Misc.
2d 603, 472 N.Y.S.2d 254, 263 (Sup. Ct. 1984), aff’d, 488
N.Y.S.2d 943, 110 A.D.2d 1095 (App. Div. 1st Dep’t 1985)
(granting a preliminary injunction under Section 51 while
noting that the plaintiff could pursue claims for damages
at trial).
We also conclude that the striking of the Chamberlin
Report does not necessarily preclude Appellants from
seeking damages. The SAC plainly asserts as a basis
for compensatory damages the violation of Appellants’
statutory rights of both privacy and publicity. New York’s
statutory right of privacy “is based upon the classic right
of privacy’s theoretical basis, which is to prevent injury
to feelings.” Lombardo v. Doyle, Dane & Bernbach, Inc.,
58 A.D.2d 620, 396 N.Y.S.2d 661, 664 (App. Div. 2d Dep’t
1977). Consequently, damages for the violation of New
York’s statutory right of privacy “often are only nominal
since they are designed primarily to compensate for injury
to feelings.” Lerman v. Flynt Distrib. Co., Inc., 745 F.2d
123, 141 (2d Cir. 1984); see, e.g., Grant v. Esquire, Inc.,
367 F. Supp. 876, 881 (S.D.N.Y. 1973) (explaining that the

42a
Appendix A
plaintiff will “be entitled to recover for any lacerations to
his feelings that he may be able to establish” if the jury
decides in his favor); Harris v. H.W. Gossard Co., 194
A.D. 688, 185 N.Y.S. 861, 863 (App. Div. 1st Dep’t 1921)
(affirming the award of six cents in recompense for the
injured feelings of a Section 51 plaintiff, a well-known
actress).
Nominal damages a re damages nonetheless.
Appellants at least initially sought recovery of damages
before the district court for mental distress and
embarrassment caused by the use of their images in
advertisements for strip clubs before the district court.
Accordingly, the district court, on remand, may consider
whether Appellants may recover on this theory.
As to whether Appellants can seek to recover the fair
market value of the images as compensation, Appellees
argue that (1) Appellants did not establish that they were
entitled to recover the fair market value of their images,
and (2) even if fair market value were the proper measure
of damages, Appellants cannot establish the fair market
value of their images in the absence of the Chamberlin
Report. Appellants contend that fair market value is a
proper measure of their damages, and Appellants could
proceed to prove fair market value even in the absence of
the Chamberlin Report because an expert opinion is not
required to support a damages assessment.
In striking the Chamberlin Report, the district court
relied in part on its reasoning that Appellants’ fair market
value damages theory was “fundamentally suspect”

43a
Appendix A
because, as they “negotiated with a willing buyer and
were paid the fair market value for any and all rights to
the images” already, allowing them “to be compensated
a second time would be a clear windfall.” Toth, 2019 U.S.
Dist. LEXIS 1355, 2019 WL 95564, at *12. As we have
explained, however, a Section 51 claim is not a breach of
contract action, but rather an action for infringement
of a person’s statutory right of privacy or publicity. The
district court’s reasoning could be persuasive if Appellees
had secured legal rights to use the photographs through
assignment, license, or other means authorized in the
release agreements. In such a case, written consent
sufficient to make their use of Appellants’ image lawful
would run from the release to Appellees. But it is conceded
that Appellees did not secure legal rights to the images,
and so damages would not constitute a windfall: Appellants
have not yet been compensated for the Clubs’ use of their
images. We thus conclude that recovery of the fair market
value of the images is a viable damages theory in this case.
See Brinkley, 438 N.Y.S.2d at 1012-13.
We are not aware of any precedent holding that
an expert opinion is required to prove compensatory
damages in an action under Section 51, though this Court
has endorsed the use of experts to prove fair market
value in other contexts. See Schonfeld v. Hilliard, 218
F.3d 164, 178 (2d Cir. 2000). Furthermore, our case law
does not suggest that Section 51 is “one of the rare causes
of action in which the law predicates recovery upon
expert testimony.” See Salem v. U.S. Lines Co., 370 U.S.
31, 35, 82 S. Ct. 1119, 8 L. Ed. 2d 313 (1962). Awarding
damages under Section 51 “is a difficult question at best.

44a
Appendix A
Objective standards for measuring injury resulting from
an invasion of privacy or an appropriation of one’s name,
likeness, or reputation are unlikely to be available, so
that a considerable degree of discretion must rest with
the finder of fact.” Big Seven Music Corp. v. Lennon, 554
F.2d 504, 512 (2d Cir. 1977). Nevertheless, the “fact that in
cases involving infringements of the right of privacy the
damages may be difficult of ascertainment or cannot be
measured by a pecuniary standard is not a good ground
for denying recovery at all. Of necessity, the question of the
measure of these damages is a matter that should be left
to the sound discretion of the jury.” Manger v. Kree Inst.
of Electrolysis, 233 F.2d 5, 9 n.5 (2d Cir. 1956) (internal
quotation marks and citations omitted); see also Myers
v. U.S. Camera Pub. Corp., 9 Misc. 2d 765, 167 N.Y.S.2d
771, 774 (City Ct. 1957).
“It is well settled that expert testimony is unnecessary
in cases where jurors are as capable of comprehending the
primary facts and of drawing correct conclusions from
them as are witnesses possessed of special or peculiar
training.” Wills v. Amerada Hess Corp., 379 F.3d 32,
46 (2d Cir. 2004) (internal quotation marks and citation
omitted). The district court made no conclusions as to the
necessity of an expert opinion, and we decline to answer
that question in the first instance. On remand, the district
court can consider whether an expert opinion is required
to prove the fair market value of the photographs at issue,
and if so, whether Appellants may supplement the record.

45a
Appendix A
III. 	Other Claims
Appellants also challenge the district court’s grant of
summary judgment to Appellees alleging that Appellees
unlawfully used photographs of them without their
consent to advertise strip clubs that Appellees owned,
in violation of the Lanham Act, 15 U.S.C. § 1125(a), New
York General Business Law Section 349, and New York
libel law.7
We first turn to Appellants’ appeal from the dismissal
of their Lanham Act claim. The Lanham Act prohibits,
in relevant part, the “use[] in commerce [of] any word,
term, name, symbol, or device, or any combination thereof
. . . likely to cause confusion, or to cause mistake, or to
deceive as to the affiliation, connection, or association
of such person with another person, or as to the origin,
sponsorship, or approval of his or her goods, services,
7. Appellants also appeal from the portion of the district
court’s order declining to award damages, attorneys’ fees, and
costs for Appellants’ only successful claim, Electra’s claim under
the Lanham Act. Appellants’ brief cursorily contends that Electra
is entitled to a jury trial on damages, but offers no argument as
to why the district court erred in concluding that Electra was not
entitled to damages under the Lanham Act in the first instance, see
PPX Enters., Inc. v. Audiofidelity Enters., Inc., 818 F.2d 266, 271
(2d Cir. 1987), abrogation on other grounds recognized in Hannex
Corp. v. GMI, Inc., 140 F.3d 194, 206 n.9 (2d Cir. 1998), nor any
argument as to fees or costs. We therefore consider Appellants’
arguments on these points to be waived. See Norton v. Sam’s
Club, 145 F.3d 114, 117 (2d Cir. 1998) (“Issues not sufficiently
argued in the briefs are considered waived and normally will not
be addressed on appeal.”).

46a
Appendix A
or commercial activities by another person.” 15 U.S.C.
§ 1125(a)(1)(A). To succeed on a false endorsement claim
under the Lanham Act, “a plaintiff must prove (1) that
the mark . . . is distinctive as to the source of the good
or service at issue, and (2) that there is the likelihood of
confusion between the plaintiff’s good or service and that of
the defendant.” ITC Ltd. v. Punchgini, Inc., 482 F.3d 135,
154 (2d Cir. 2007). To determine the likelihood of consumer
confusion, we apply the eight-factor test of Polaroid
Corporation v. Polarad Electronics Corporation. 287
F.2d 492, 495 (2d Cir. 1961). See Kelly-Brown v. Winfrey,
717 F.3d 295, 307 (2d Cir. 2013). As is relevant consumer
confusion, and evidence that the mark was adopted in bad
faith. Starbucks Corp. v. Wolfe’s Borough Coffee, Inc., 588
F.3d 97, 115 (2d Cir. 2009).
“On appeal from a grant of summary judgment, the
findings with respect to predicate facts underlying each
Polaroid factor are reviewed with considerable deference
to the district court.” Playtex Prods., Inc. v. Ga.-Pac.
Corp., 390 F.3d 158, 162 (2d Cir. 2004) (internal quotation
marks and footnote citation omitted), superseded on other
grounds as recognized in Starbucks Corp., 588 F.3d at
107-08. In addition, this Court “review[s] the district
court’s decision to admit or exclude expert testimony
under a highly deferential abuse of discretion standard.”
Zuchowicz v. United States, 140 F.3d 381, 386 (2d Cir.
1998).
We conclude that the district court correctly dismissed
Appellants’ Lanham Act claim. The district court properly
analyzed the record of each Appellant’s public prominence

47a
Appendix A
to determine the strength of their marks, because among
other reasons, the advertisements at issue provided
no information identifying Appellants other than their
pictures. See Bondar v. LASplash Cosmetics, No. 12-cv1417, 2012 U.S. Dist. LEXIS 175873, 2012 WL 6150859,
at *7 (S.D.N.Y. Dec. 11, 2012) (“[T]he misappropriation of
a completely anonymous face could not form the basis for
a false endorsement claim, because consumers would not
infer that an unknown model was ‘endorsing’ a product,
as opposed to lending her image to a company for a fee.”
(footnote omitted)). Further, because the ultimate question
under Polaroid Corporation is the likelihood of consumer
confusion, the district court properly analyzed Appellants’
recognizability. See id.
For substantially the same reasons as those set out
in the district court’s opinion, we also conclude that the
district court did not abuse its discretion in striking
Appellants’ expert report (the “Buncher Report”) about
a survey conducted of individuals who frequented strip
clubs on their perceptions of the advertisements. Among
other defects, the survey on which the Buncher Report
was based asked respondents about only a small fraction
of the images at issue, and it failed to provide respondents
with an opportunity to indicate lack of knowledge about
how to interpret the use of Appellants’ images in the
advertisements. Appellants’ arguments on appeal—
that asking about more images would have been more
expensive, and that the Buncher Report was based on “a
communications study, not a consumer confusion study,”
Appellants’ Br. at 55-56—are insufficient to set aside
the district court’s conclusion that the Buncher Report

48a
Appendix A
was fatally flawed. Lastly, we agree that Appellants
failed to establish any actual consumer confusion or
bad faith. Appellants point to no evidence of actual
consumer confusion. And while Appellants urge this
Court to conclude that Appellees acted in bad faith, the
record merely shows that Appellees failed to investigate
whether the third-party contractor responsible for the
advertisements secured legal rights to use Appellants’
pictures in the promotional images—not that Appellees
intended to use the pictures without legal right to do so.
We next turn to Appellants’ appeal from the dismissal
of their claim under New York General Business Law
Section 349, which prohibits “[d]eceptive acts or practices
in the conduct of any business, trade or commerce or in
the furnishing of any service in this state.” N.Y. Gen. Bus.
Law § 349(a). “To state a claim under § 349, a plaintiff must
allege: (1) the act or practice was consumer-oriented; (2)
the act or practice was misleading in a material respect;
and (3) the plaintiff was injured as a result.” Spagnola v.
Chubb Corp., 574 F.3d 64, 74 (2d Cir. 2009). Section 349
authorizes suit by “any person who has been injured by
reason of any violation of this section,” N.Y. Gen. Bus. Law
§ 349(h), and we have held that Section 349 allows recovery
by non-consumers if there is “some harm to the public
at large,” Securitron Magnalock Corp. v. Schnabolk, 65
F.3d 256, 264 (2d Cir. 1995) (internal quotation marks
and citation omitted). Nevertheless, to successfully state
a claim under Section 349 “the gravamen of the complaint
must be consumer injury or harm to the public interest.”
Id. (internal quotation marks omitted).

49a
Appendix A
We agree with the district court that the misconduct
alleged here was not consumer-oriented. The gravamen
of Appellants’ complaint is that Appellees used their
modeling images without their consent, a private dispute
over a private injury visited on the individuals portrayed
in the photographs. The alleged misconduct was therefore
not “consumer-oriented in the sense that [it] potentially
affect[s] similarly situated consumers.” Oswego Laborers’
Local 214 Pension Fund v. Marine Midland Bank, 85
N.Y.2d 20, 27, 647 N.E.2d 741, 623 N.Y.S.2d 529 (1995).
Lastly, we consider Appellants’ libel claim. “Under
New York law, a plaintiff must establish five elements to
recover in libel: 1) a written defamatory statement of fact
concerning the plaintiff; 2) publication to a third party; 3)
fault (either negligence or actual malice depending on the
status of the libeled party); 4) falsity of the defamatory
statement; and 5) special damages or per se actionability
(defamatory on its face).” Celle v. Filipino Rep. Enters.
Inc., 209 F.3d 163, 176 (2d Cir. 2000). Actual malice “must
be supported by clear and convincing proof” that the
publisher of the statements “had a subjective awareness
of either falsity or probable falsity of the defamatory
statement, or acted with reckless disregard of . . . its
truth or falsity.” Id. at 182-83. Appellants primarily
argue that the advertisements were false defamatory
statements because their “most obvious interpretation”
was that Appellants would be “stripping at the strip clubs,”
Appellants’ Br. at 50, and that Appellants established that
Appellees acted with actual malice.

50a
Appendix A
These arguments are without merit. First, we
agree with the district court that it was a reasonable
interpretation of the use of Appellants’ images in the
advertisements that Appellants were not employed
in Appellees’ clubs, but merely modeled in the clubs’
advertisements. Insofar as the advertisements were
therefore “reasonably susceptible of multiple meanings,
some of which [were] not defamatory, it [was] then for the
trier of fact, not for the court acting on the issue solely
as a matter of law, to determine in what sense the words
were used and understood.” Celle, 209 F.3d at 178 (internal
quotation marks omitted). Accordingly, the district
court correctly denied Appellants’ motion for summary
judgment. Second, we agree with the district court that
Appellants failed to adduce clear and convincing proof
of actual malice. As previously discussed, Appellants
at most have shown that Appellees failed to investigate
whether the third-party contractor responsible for the
advertisements secured legal rights to use Appellants’
pictures in the promotional images. As this Court has
explained, however, “mere failure to investigate, while
relevant, is also not itself sufficient to show actual malice.”
Lerman v. Flynt Distrib. Co., 745 F.2d 123, 141 (2d
Cir. 1984). We conclude that the district court correctly
granted Appellees’ cross-motion for summary judgment
dismissing Appellants’ libel claims.
Accordingly, the order of the district court hereby is
affirmed as to Appellants’ claims under the Lanham Act,
New York General Business Law Section 349, and New
York libel law.

51a
Appendix A
CONCLUSION
For the foregoing reasons, we affirm the July 26, 2017
order of the district court, vacate so much of the January
3, 2019 judgment of the district court as applies to the
Section 51 claims of Lee, Mayes, Koren, Shake, Hinton,
and Golden, affirm the remainder of the January 3, 2019
judgment, and remand for further proceedings consistent
with this opinion.

52a
Appendix A
Appendix to the opinion of the CoURt
App’x at 115 (exhibit e to the SAC)

53a
Appendix A
App’x at 123 (exhibit h to the SAC)

54a
Appendix B
Appendix b — memorandum
and order
of the united states district court
for the southern district of new york,
filed january 3, 2019
United States District Court
Southern District of New York
January 3, 2019, Decided; January 3, 2019, Filed
TIFFANY TOTH, GEMMA LEE, JESSA HINTON,
BROOKE TAYLOR, JESSE GOLDEN, LINA
POSADA, SHEENA LEE WEBER, HEATHER RAE
YOUNG, RACHEL KOREN, SABELLA SHAKE,
URSULA MAYES, and CARMEN ELECTRA,
Plaintiffs,
- against 59 MURRAY ENTERPRISES, INC., d/b/a NEW
YORK DOLLS GENTLEMEN’S CLUB, BARRY
LIPSITZ, AAM HOLDING CORPORATION,
d/b/a PRIVATE EYES GENTLEMEN’S CLUB,
ANITA MICELI, JAY-JAY CABERET, INC., d/b/a
FLASHDANCERS GENTLEMEN’S CLUB,
and MARSHA LIPSITZ,
Defendants.
MEMORANDUM AND ORDER
NAOMI REICE BUCHWALD
UNITED STATES DISTRICT JUDGE

55a
Appendix B
Plaintiffs, eleven models earning a living by promoting
their images to commercial brands and entertainment
outlets, br ing this action for false endorsement,
misappropriation of likeness, deceptive trade practice,
and defamation against defendant gentlemen’s clubs and
their owners, alleging that defendants misappropriated
plaintiffs’ images by using them in defendants’ promotional
material without consent. Plaintiffs now move for
summary judgment pursuant to Rule 56 of the Federal
Rules of Civil Procedure. Defendants cross-move for
summary judgment and also move to strike the expert
reports, survey, and testimony of plaintiffs’ proposed
experts Martin Buncher and Stephen Chamberlin. For
the reasons set forth below, we grant in part and deny in
part both plaintiffs’ motion for summary judgment and
defendants’ cross-motion for summary judgment, and
grant defendants’ motion to strike the reports, survey, and
testimony of plaintiffs’ proposed experts in its entirety.
I. BACKGROUND1
A. 	Parties
Plaintiff Electra is a professional model, actress,
recording artist, and entrepreneur. She has released
1. The facts described below are largely drawn from the
Second Amended Complaint, ECF No. 18 (“SAC”), Plaintiffs’ Local
Rule 56.1 Statement, ECF No. 81 (“Pls.’ 56.1 Stmt.”), Defendants’
Response to Pls.’ 56.1 Stmt., ECF No. 93 (“Defs.’ 56.1 Response”),
Defs.’ Local Rule 56.1 Statement, ECF No. 110 (“Defs.’ 56.1 Stmt.”),
and Plaintiffs’ Response to Defs.’ 56.1 Stmt., ECF No. 117 (“Pls.’ 56.1
Response”). We will note any facts in dispute.

56a
Appendix B
a self-titled album produced by Prince on his Paisley
Park record label, appeared on television shows such
as Baywatch, 90210, Britain’s Got Talent, and Ex-Isle,
starred in popular movies such as Scary Movie, Dirty
Love, Cheaper by the Dozen 2, and Meet the Spartans,
and released a single that reached the number 25 spot
on Billboard’s Dance Club Play Chart. In 2006, Electra
became a published author with the release of her book
How to be Sexy. Pls.’ 56.1 Stmt. ¶ 57.
The other ten plaintiffs2 — plaintiffs Golden, Hinton,
Koren, Lee, Mayes, Posada, Shake, Toth, Weber, and
Young — are models, actresses, and/or businesswomen
who have appeared in a wide variety of commercials,
promotional campaigns, and magazines. Pls.’ 56.1 Stmt.
¶¶ 9, 15, 20, 24, 28, 32, 36, 42, 47, 52. Several of these
plaintiffs have also made unspecified appearances in
television shows and films. All plaintiffs, including Electra,
reside in either California or Texas, see SAC ¶¶ 11-22,
and at least some of plaintiffs’ appearances were made
in media targeting audiences outside of the New York
metropolitan area. See, e.g., id. ¶¶ 36 (hosting a television
show for a local station in Los Angeles, California), 47
(promoting foreign lingerie brands). Plaintiffs also lay
claim to varying degrees of social media celebrity, citing
followings on Facebook, Instagram, and Twitter as of
May 2018.
Corporate defendants 59 Murray Enterprises, Inc.,
AAM Holding Corp., and Jay-Jay Cabaret, Inc. own
2. Counsel for plaintiffs confirmed that Brooke Taylor has
withdrawn all claims in this action. Oral Arg. Tr. (“Tr.”) 2:16-18.

57a
Appendix B
and operate Manhattan-based gentlemen’s clubs —
namely, New York Dolls Gentlemen’s Club (“NY Dolls”),
Private Eyes Gentlemen’s Club (“Private Eyes”), and
Flashdancer’s Gentlemen’s Club (“Flashdancer’s”),
respectively (collectively, “the Clubs”). Pls.’ 56.1 Stmt.
¶¶ 63, 65, 67. For all times relevant to this litigation,
individual defendant Barry Lipsitz has been the sole
owner of 59 Murray and co-owner, along with defendant
Marsha Lipsitz, of AAM and Jay-Jay Cabaret. Defs.’ 56.1
Stmt. ¶¶ 193, 221-22. Defendant Anita Miceli is a former
co-owner of AAM whose ownership interest ended in
2010. Id. ¶ 217.
B. 	The Images
The Clubs are engaged in the business of selling
alcohol while nude or seminude women entertain patrons.
Pls.’ 56.1 Stmt. ¶¶ 63, 65, 67. In order to promote their
businesses, the Clubs, with the assistance of third-party
contractors, post promotional content on their websites
and social media accounts. The content is typically some
combination of the Club’s logo, a woman striking a pose,
and a sentence or two of text either identifying a specific
event or generally promoting interest in the Clubs.
An advertisement for a NY Dolls Halloween party
posted to the NY Dolls website in October of 2014 is
typical. SAC Ex. A, ECF No. 18-1 at 2 (“Al”). Al features
an image of plaintiff Toth posing in a costume alongside
a superimposed NY Dolls logo and text that reads “New
York Dolls Halloween Party!” and “100 entertainers
in costume! Giveaways and lots of other surprises!”

58a
Appendix B
The advertisement includes a caption below the image
clarifying that the costumes will be the entertainers’
“sexiest”:

The second screenshot included in Exhibit A provides
an example of promotional content posted to the Clubs’
social media accounts. SAC Ex. A, ECF No. 18-1 at
3 (“A2”). A2, posted to the NY Dolls Facebook page,
features an image of plaintiff Toth in what could be a
bathing suit, her arms pulled back above her head as she
strikes a pose against an empty white background. The
only text is a caption adjacent to the image asking “Who
needs to leave anything to the imagination when the
reality is even better?”:

59a
Appendix B

Plaintiffs attach an additional 35 images to the Sac that
the parties agree in toto feature the likenesses of at least one
plaintiff. See Sac exs. a-0, ecf nos. 18-1 through 18-3.3
None of the content identifies plaintiffs by name.
3. See Sac ex. a, ecf no. 18-1 at 4 (“a3”), 6 (“a4”), 7 (“a5”)
(toth); Sac exs. B and c, ecf no. 18-1 at 10 (“Bl”) and 12 (“cl”)
(Lee); Sac ex. d, ecf no. 18-1 at 14 (“dl”), 15 (“d2”) (Young);
Sac exs. e and f, ecf no. 18-1 at 17 (“el”), 19 (“fl”) (koren and
Shake); Sac ex. G, ecf nos. 18-1 at 21 (“Gl”), 22 (“G2”) and 18-2
at 1 (“G3”) (Mayes); Sac exs. h and i, ecf no. 182 at 3 (“hl”), 4
(“h2”), 5 (“h3”), 6 (“h4”), 7 (“h5”), 8 (“h6”), 9 (“h7”), 11 (“il”), 12
(“i2”), 13 (“13”), 14 (“i4”), 15 (“i5”) (hinton) ; Sac exs. J, k, and L,
ecf no. 18-2 at 17 (“Jl”), 19 (“kl”), 21 (“Ll”) (Golden); Sac ex. M.,
ecf nos. 18-2 at 23 (“Ml”) and 18-3 at 1 (“M2”), 2 (“M3”), 3 (“M4”),
4 (“M5”) (Posada); Sac ex. n, ecf no. 18-3 at 7 (“ni”), 8 (“n2”)
(weber); Sac ex. 0, ecf no. 18-3 at 11 (“01”) (electra). G1 through
G3 are the only images that do not appear on the clubs’ websites or
accounts; the images appear instead on either www.stripclublists.
com (G1 and G2) or www.stripclubcoupons.com (G3).

60a
Appendix B
It is undisputed that defendants never sought
permission to use plaintiffs’ images in their promotional
content, and that in fact plaintiffs never specifically agreed
to appear in the Clubs’ promotional content or at any of
the events promoted therein. Pls.’s 56.1 Stmt. ¶¶ 5, 6. Nor
did plaintiffs agree to endorse the Clubs. Id. Moreover,
plaintiffs were never offered, nor did they receive, any
specific compensation for the Clubs’ use of their images.
Id. ¶ 7.
It is also undisputed that the Clubs entered into
agreements with third-parties to create and maintain
their respective websites and social media accounts.
Paul Brown and his company Internet Management
Corporation (“IMC”) designed the Clubs’ websites and
have provided advertising services to the Clubs for over
20 years, while Melange Media Group LLC (“Melange”)
was responsible for creating the Clubs’ social media
accounts and ran those accounts from at least February
2014 through the filing of the complaint in this action.
Defs.’ 56.1 Stmt. ¶¶ 195, 198; Pls.’ 56.1 Stmt. ¶¶ 70-73;
Declaration of John Golaszewski (“Golaszewski Decl.”)
Ex. 0, June 1, 2018, ECF No. 80-3.
Defendants ma i nt a i n that these thi rd-pa r ty
contractors were responsible for creating and publishing
the promotional content posted to the Clubs’ websites
and accounts, including the selection of the images at
issue. Pls.’ 56.1 Stmt. ¶¶ 81, 85; Defs.’ 56.1 Stmt. ¶¶ 196,
198. Plaintiffs counter that, at times, one of the Clubs’
employees coordinated with IMC and Melange regarding
the posting of promotional content, Pls.’ 56.1 Response

61a
Appendix B
¶ 196, but it is undisputed that the Clubs never requested
the use of any particular plaintiff’s image, nor is it
disputed that the extent of the Clubs’ involvement in the
posting of the images at issue was requesting images of
models that were consistent with the general themes of the
advertisements. Defs.’ 56.1 Stmt. ¶ 211. Brown himself has
readily admitted that IMC was responsible for posting all
of the images at issue except for 01.4 Defs.’ 56.1 Stmt. ¶ 208.
C. 	Permission to Use the Images
A number of plaintiffs conceded that they typically
sign releases for photoshoots that they participate in,
see, e.g., Defs.’ 56.1 Stmt. ¶¶ 13, 29, 92, 135, but the only
plaintiffs for which there are releases specific to images
at issue in this litigation are Lee, Koren, Shake, Mayes,
Hinton, and Golden. Defs.’ 56.1 Stmt. ¶¶ 35 (Lee), 69
(Koren), 78 and 87 (Shake), 98 (Mayes), 5 122 (Hinton), 144
(Golden). The specific language of each release varies,
but all grant the releasee unlimited rights to the use of
the images at issue. See, e.g., Defs.’ 56.1 Stmt. ¶¶ 38 (“I
. . . further waive any claim that I may at any time have
to the eventual use to which such Images may be applied.
4. Defendants assert that image 01 was posted by Melange.
Defs.’ 56.1 Stmt. % 199. As plaintiffs note, Brown’s admission is
difficult to square with the fact that 22 of the 37 images at issue
were posted to social media accounts run by Melange, as opposed
to the Clubs’ websites run by Brown and IMC. Pls.’ 56.1 Response
% 197. Plaintiffs, however, do not contend that the Clubs, as opposed
to Melange, were directly responsible for posting the images that
appeared on the Clubs’ social media accounts.
5. See also Tr. 12:4-13:6.

62a
Appendix B
Additionally, I hereby warrant, transfer, sell and assign
all right, title and interest to the Images to Company for
the consideration state [sic] herein”), 87 (“All negatives and
positives, together with the prints shall constitute your
property, solely and completely.”), 123 (“I agree that I have
no rights to the Images and all rights to the Images belong
to [releasee] without reservation of rights, in perpetuity,
throughout the universe, in all media whether now known
or later discovered.”).
While defendants claim that Brown advised them that
he had secured permission to use the images at issue,
plaintiffs dispute that Brown did so. Pls.’ 56.1 Response
¶ 200. Instead, plaintiffs claim that the Clubs were on
a “faith basis” with Brown, and never saw or actually
requested any written confirmation that Brown or his
company had the rights to use any of the images. See Pls.’
56.1 Stmt. ¶¶ 88-91; Defs.’ 56.1 Stmt. ¶ 203. Consistent
with defendants’ “faith basis” approach, there is no
evidence in the record that the Clubs were aware prior
to the commencement of this action that their contractors
were posting images without properly securing the rights
to those images. Pls.’ 56.1 Response ¶ 212; see also Pls.’
56.1 Stmt. ¶ 80. Defendants have since removed all of
the images at issue from their promotional material. Tr.
17:11-25.
D. 	Earnings and Income
Plaintiffs offer undisputed evidence of income from
modeling and standard rates that they charged for their
services. Electra earned over $5,000,000 from modeling

63a
Appendix B
between 2009 and 2012. Defs.’ 56.1 Stmt. ¶¶ 182-189. For
years in which the other ten plaintiffs reported incomes
from modeling, they ranged from $400 (Weber) to $92,000
(Golden). Defs.’ 56.1 Stmt. ¶¶ 140, 167. All plaintiffs’
tax returns show that their income either increased or
remained roughly the same from 2009 to 2016. Defs.’
56.1 Stmt. ¶ 191. Where there is evidence of plaintiffs’
“day rates,” or fees charged by plaintiffs for a full day
photoshoot, those rates range from $1,500 to $3,000. Defs.’
56.1 Stmt. ¶ 39, 86, 124.
The Clubs did not garner any additional profits from
using plaintiffs’ images, and there is no evidence of an
increase in revenue attributable to any special events
that were promoted through the use of plaintiffs’ images.
Defs.’ 56.1 Stmt. ¶ 192.
E. 	Procedural Background
Plaintiffs filed their initial complaint on October 13,
2015, ECF No. 1, and subsequently filed two amended
complaints in January of 2016. See ECF Nos. 13 and 18.
Each complaint alleges the same eight causes of action:
(1) false endorsement under Section 43 of the Lanham
Act, 15 U.S.C. § 1125(a)(1); (2) misappropriation of
likeness for advertising purposes under N.Y. Civil Rights
Law (“NYCRL”) §§ 50-51; (3) deceptive trade practices
under N.Y. General Business Law (“NYGBL”) § 349(h);
(4) defamation; (5) negligence; (6) conversion; (7) unjust
enrichment; and (8) quantum meruit.

64a
Appendix B
On July 15, 2016, defendants filed a third-party
complaint against IMC and Melange. ECF No. 25. Neither
third-party defendant appeared.
After a lengthy and contentious period of discovery,
the parties held a teleconference with the Court on April
19, 2018 during which plaintiffs indicated that they were
withdrawing their claims of negligence, conversion, unjust
enrichment, and quantum meruit and so confirmed during
oral argument on November 29, 2018. Tr. 2:12-15. Also
during oral argument on November 29, 2018, plaintiffs
confirmed that they were withdrawing all claims made
on behalf of plaintiff Brooke Taylor. Id. at 2:16-22.
II. DISCUSSION
A motion for summary judgment is appropriately
granted when there is no genuine issue as to any material
fact and the moving party is entitled to judgment as a
matter of law. Fed. R. Civ. P. 56(a). In this context, “[a] fact
is ‘material’ when it might affect the outcome of the suit
under governing law,” and “[a]n issue of fact is ‘genuine’
if the evidence is such that a reasonable jury could return
a verdict for the nonmoving party.” McCarthy v. Dun &
Bradstreet Corp., 482 F.3d 184, 202 (2d Cir. 2007) (internal
quotation marks and citations omitted). “In assessing the
record to determine whether there is [such] a genuine
issue to be tried, we are required to resolve all ambiguities
and draw all permissible factual inferences in favor of
the party against whom summary judgment is sought.”
Gorzynski v. JetBlue Airways Corp., 596 F.3d 93, 101 (2d
Cir. 2010) (citing Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 255, 106 S. Ct. 2505, 91 L. Ed. 2d 202 (1986)).

65a
Appendix B
On a motion for summary judgment, “[t]he moving
party bears the initial burden of demonstrating ‘the
absence of a genuine issue of material fact.’” F.D.I.C.
v. Great Am. Ins. Co., 607 F.3d 288, 292 (2d Cir.2010)
(quoting Celotex Corp. v. Catrett, 477 U.S. 317, 323, 106
S. Ct. 2548, 91 L. Ed. 2d 265 (1986)). Where that burden
is carried, the non-moving party “must come forward
with specific evidence demonstrating the existence of a
genuine dispute of material fact.” Id. (citing Anderson,
477 U.S. at 249). The non-moving party “must do more
than simply show that there is some metaphysical doubt
as to the material facts ... and may not rely on conclusory
allegations or unsubstantiated speculation.” Brown v. Eli
Lilly and Co., 654 F.3d 347, 358 (2d Cir. 2011) (internal
quotation marks and citations omitted).
A. 	Individual Defendants
Plaintiffs do not contest defendants’ cross-motion
for summary judgment to dismiss all claims against
individual defendants Lipsitz, Lipsitz, and Miceli. See
Tr. 2:19-22. Because there is nothing in the record to
support a piercing of the corporate veil or any other theory
of liability implicating individual defendants, we grant
defendants’ cross-motion for summary judgment and deny
plaintiffs’ motion as to the individual defendants.
B. 	Lanham Act § 43 (15 U.S.C. § 1125(a)(1)) False
Endorsement Claim
Section 43 of the Lanham Act prohibits the use of a
protected mark in a way that is likely to cause consumer

66a
Appendix B
confusion “as to the origin, sponsorship, or approval
of [defendants’] goods.” 15 U.S.C.A. § 1125 (a)(1)(A)
(emphasis added). In order to establish a claim for false
endorsement under Section 43(a), plaintiffs must prove
that defendants: “(1) in commerce, (2) made a false or
misleading representation of fact (3) in connection with
goods or services (4) that is likely to cause consumer
confusion as to the origin, sponsorship, or approval of the
goods or services.” Burck v. Mars, Inc., 571 F. Supp. 2d
446, 455 (S.D.N.Y. 2008); see also Beastie Boys v. Monster
Energy Co., 66 F. Supp. 3d 424, 448 (S.D.N.Y. 2014).
As defendants do not dispute that plaintiffs have
established that the defendants’ advertisements and
promotions were used “in commerce” and “in connection
with goods or services,” we begin by addressing whether
defendants made a false or misleading representation of
fact.
1. 	False or Misleading Representation of
Fact
Defendants argue that the use of plaintiffs’ images
is neither literally nor impliedly false. But whether a
representation is literally or impliedly false is a question
traditionally addressed within the context of false
advertising claims brought under 15 U.S.C.A. § 1125 (a)
(1)(B), not in the context of false endorsement claims
brought under subsection (A) of the section. See, e.g.,
Fischer v. Forrest, No. 14-cv-1304 (PAE), 2015 U.S. Dist.
LEXIS 4395, 2015 WL 195822, at *11 (S.D.N.Y. Jan. 13,
2015); Roberts v. Bliss, 229 F. Supp. 3d 240, 249 (S.D.N.Y.

67a
Appendix B
2017); Beastie Boys, 66 F. Supp. 3d at 449-56 (S.D.N.Y.
2014). In a false endorsement claim brought under 15
U.S.C.A. § 1125 (a)(1)(A), the unauthorized and suggestive
use of a person’s image can satisfy the requisite element
of falsity. See Roberts, 229 F. Supp. 3d at 249 (“The false
or misleading representation of fact, in the context of
a false endorsement claim, may involve the misleading
implication that a celebrity or public figure endorses a
product, when she does not.”); A.V.E.L.A., Inc. v. Estate of
Marilyn Monroe, LLC, 131 F. Supp. 3d 196, 208 (S.D.N.Y.
2015) (citing cases holding that “the use of an image on a
product can support a claim for false endorsement”); see
also 5 McCarthy on Trademarks and Unfair Competition
§ 28:15 (5th ed.).
Here, where the parties do not dispute that plaintiffs
never endorsed or agreed to be associated with the Clubs,
the prominent display of plaintiffs’ images in the Clubs’
advertising constitutes false or misleading representations
of fact for purposes of a false endorsement claim. Whether
these misrepresentations are likely to cause consumer
confusion actionable under the Lanham Act, however, is
a separate question and the subject of the next step in
our analysis.
2. 	Likelihood of Consumer Confusion
“It is well settled that the crucial determinant in an
action for trademark infringement or unfair competition
is whether there is any likelihood that an appreciable
number of ordinarily prudent purchasers are likely to
be misled, or indeed simply confused, as to the source of

68a
Appendix B
the goods in question.” Pirone v. MacMillan, Inc., 894
F.2d 579, 584 (2d Cir. 1990) (internal quotation marks
omitted); see also Dallas Cowboys Cheerleaders, Inc. v.
Pussycat Cinema, Ltd., 604 F.2d 200, 205 (2d Cir. 1979)
(“The public’s belief that the mark’s owner sponsored or
otherwise approved the use of the trademark satisfies
the confusion requirement”). This is normally a factual
question, but a court may dismiss claims as a matter law
if satisfied that there is no genuine issue of material fact.
Pirone, 894 F.2d at 584-85.
“Generally speaking, establishing a likelihood of
confusion is the plaintiff’s burden.” Bondar v. LASplash
Cosmetics, No. 12-cv-1417 (SAS), 2012 U.S. Dist. LEXIS
175873, 2012 WL 6150859, at *5 (S.D.N.Y. Dec. 11, 2012).
We evaluate plaintiffs’ showing of likelihood of confusion
using a modified version of the traditional Polaroid test,
omitting from our analysis elements of the test that are
inapplicable to false endorsement claims. See Polaroid
Corp. v. Polarad Elecs. Corp., 287 F.2d 492, 495 (2d Cir.
1961); see also Jackson v. Odenat, 9 F. Supp. 3d 342, 356
(S.D.N.Y. 2014); Beastie Boys, 66 F. Supp. 3d at 424. The
Polaroid factors we consider are: (1) strength of the
trademark; (2) evidence of actual consumer confusion;
(3) evidence that the imitative mark was adopted in bad
faith; (4) similarity of the marks; (5) proximity of the
products and their competitiveness with one another; and
(6) sophistication of consumers in the relevant market.
“The application of the Polaroid test is not mechanical,
but rather, focuses on the ultimate question of whether,
looking at the products in their totality, consumers are

69a
Appendix B
likely to be confused.” Starbucks Corp. v. Wolfe’s Borough
Coffee, Inc., 588 F.3d 97, 115 (2d Cir. 2009) (internal
quotation marks omitted). “No single factor is dispositive,”
Brennan’s, Inc. v. Brennan’s Rest., LLC, 360 F.3d 125, 130
(2d Cir. 2004), and the fact “that one or more factors may
weigh in one party’s favor does not preclude summary
judgment in the other’s favor with respect to likelihood
of confusion.” Disney Enters., Inc. v. Sarelli, 322 F. Supp.
3d 413, 432-33 (S.D.N.Y. 2018).
a. 	Strength of Mark
For purposes of a false endorsement claim, “the
‘mark’ is the plaintiff’s persona and the ‘strength of the
mark’ refers to the level of recognition that the plaintiff
has among the consumers to whom the advertisements
are directed.” Jackson, 9 F. Supp. 3d at 356. “The
strength of [plaintiff’s] mark or name is a crucial factor
in determining likelihood of consumer confusion.” Pelton
v. Rexall Sundown, Inc., No. 99-cv-4342 (JSM), 2001 U.S.
Dist. LEXIS 3825, 2001 WL 327164, at *3 (S.D.N.Y. Apr.
4, 2001).
Plaintiffs, however, argue that the operative question
in evaluating the strength of mark factor is not whether
plaintiffs are recognizable, but rather whether plaintiffs
possessed a mere intention to commercialize their marks.
This argument stands in stark contrast to the caselaw and
ignores the reality that, absent some level of recognition,
there is no basis for inferring consumer confusion
regarding the sponsorship or approval of the Clubs’ goods
and services. See Bondar, 2012 U.S. Dist. LEXIS 175873,

70a
Appendix B
2012 WL 6150859, at *7 (“Of course, the misappropriation
of a completely anonymous face could not form the basis for
a false endorsement claim, because consumers would not
infer that an unknown model was ‘endorsing’ a product,
as opposed to lending her image to a company for a fee”);
Pelton, 2001 U.S. Dist. LEXIS 3825, 2001 WL 327164, at
*3-4 (granting defendant’s motion for summary judgment
where there was no evidence that plaintiff, who claimed
international renown and had appeared as a model in
various magazines and promotional campaigns, was “a
recognizable celebrity”); Albert v. Apex Fitness, Inc.,
No. 97-cv-1151 (LAK), 1997 U.S. Dist. LEXIS 8535, 1997
WL 323899, at *1 (S.D.N.Y. June 13, 1997); Passelaigue v.
Getty Images (US), Inc., No. 16-cv-1362 (VSB), 2018 U.S.
Dist. LEXIS 34004, 2018 WL 1156011, at *8 (S.D.N.Y.
Mar. 1, 2018).6
Plaintiff Electra has offered persuasive evidence of
the strength of her mark. Electra’s uncontroverted resume
establishes that she has not just appeared in popular
movies and television shows, but had regular and starring
roles in them. She is a recording artist that has released a
self-titled album under a well-known record label. Brands
6. In support of their argument, plaintiffs rely primarily on
Fischer v. Forrest, 286 F. Supp. 3d 590 (S.D.N.Y. 2018). See Pls.’
Reply Br. 9, ECF No. 115. But in Fischer, the court held that plaintiff
Fischer failed to demonstrate a likelihood of consumer confusion as
a matter of law, despite the magistrate judge’s finding that Fischer
met “or appeared to meet” the strength of mark factor by showing
that he had profitably marketed his product for a number of years.
Fischer, 286 F. Supp. 3d at 612. We decline to redefine the strength
of the mark factor on account of stray dicta.

71a
Appendix B
and businesses have placed value in her appearances to
the tune of millions of dollars. These achievements are
indicia of a strong mark. Moreover, counsel for defendants
concede that Electra may be well known enough to be
recognized in an advertisement containing only her image
and without her name, Defs.’ Br. 15, ECF No. 109, and
defendants’ own expert Joseph Hunter concludes that
“Carmen Electra is a celebrity model and commercial
talent, who has receive notoriety and a notable reputation
in her field . . . .” Affidavit of Joseph Hunter (“Hunter
Aff.”), ECF No. 98 at 11.
In contrast, the remaining ten plaintiffs have
failed to adduce evidence of a strong mark. Unlike
plaintiff Electra, none of these other plaintiffs offered
evidence of significant income earned through their
various appearances. And while these other plaintiffs
have participated in promotional campaigns for a wide
variety of brands and appeared in magazines, TV shows,
and movies, their resumes are devoid of evidence that
they actually garnered recognition for any of their
appearances. Simply listing brands or magazine titles
is insufficient. See Pelton, 2001 U.S. Dist. LEXIS 3825,
2001 WL 327164, at *3 (“One appearance in a Sports
Illustrated Swimsuit Issue in 1984 and some advertising
work for well-known consumer products does not deliver
celebrity status.”). Plaintiffs’ recitations of their social
media followings as of May 2018 are equally unavailing, in
large part due to the fact that there is no evidence in the
record as to what plaintiffs’ social media followings were
at the time of the publishing of the images at issue - the
operative inquiry. The bottom line is that regardless of

72a
Appendix B
the plaintiffs’ presence on social media, they have failed
to cite even one example of actual recognition (other than
the single response out of 636 correctly identifying Electra
in image 01, see infra n.10).
For these reasons, while plaintiff Electra has
demonstrated that she has a strong mark, the other ten
plaintiffs have failed to do so.
b. 	Evidence of Actual Confusion
We now examine the second factor: evidence of actual
confusion among consumers. While evidence of “actual
confusion need not be shown to prevail under the Lanham
Act,” see Lois Sportswear, U.S.A., Inc. v. Levi Strauss &
Co., 799 F.2d 867, 875 (2d Cir. 1986), it is “highly probative
of likelihood of confusion.” Allen v. Nat’l Video, Inc., 610
F. Supp. 612, 628 (S.D.N.Y. 1985). Such evidence can be
anecdotal, see Disney Enterprises, Inc. v. Sarelli, 322
F. Supp. 3d 413, 435 (S.D.N.Y. 2018), but plaintiffs’ sole
evidence of consumer confusion in this case is a survey
conducted by their proposed expert Martin Buncher (the
“Buncher Survey”). Golaszewski Decl. Ex. S, ECF No.
80-3; Tr. 13:7-11.
The Buncher Survey, a self-administered internet
questionnaire, asks a sample of adult male New York7
7. The Buncher Survey describes the sample of respondents as
Florida residents, which appears to be a “cut and paste” error, as
other aspects of the survey suggest that in fact respondents were
a sample of New York residents. See Golaszewski Decl. Ex. S, ECF
No. 80-3 at 69, 141.

73a
Appendix B
residents who had patronized a gentlemen’s club in the
previous two years a series of closed-and open-ended
questions relating to three of the images at issue in this
litigation. See Golaszewski Decl. Ex. S, ECF No. 80-3
at 68-69. Plaintiffs cite the responses from the Survey
as evidence that the use of plaintiffs’ images caused
consumers to believe that plaintiffs had “agreed to
promote the Strip Clubs,” “agreed to be in the advertising,”
“represent[ed] the lifestyle to which the Club is oriented,”
and “might participate in some of the events described in
the advertising.” See Pls.’ Br. 11, ECF No. 82.
Defendants move to strike the Buncher Survey under
Federal Rules of Evidence (“FRE”) 702 and 403. Under
FRE 702, expert testimony is admissible “so long as the
witness is qualified as an expert and (1) the testimony is
based on sufficient facts or data, (2) the testimony is the
product of reliable principles and methods, and (3) the
expert has reliably applied the principles and methods
reliably to the facts of the case.” United States v. Pryor,
474 F. App’x 831, 834 (2d Cir. 2012) (summary order)
(internal quotation marks omitted). “While the proponent
of expert testimony has the burden of establishing by
a preponderance of the evidence that the admissibility
requirements of Rule 702 are satisfied, the district court
is the ultimate ‘gatekeeper’” and must ensure “that an
expert’s testimony both rests on a reliable foundation and
is relevant to the task at hand.” United States v. Williams,
506 F.3d 151, 160 (2d Cir. 2007) (citation omitted).
Moreover, “as with all evidence, under Rule 403,
the Court may exclude testimony if its probative value

74a
Appendix B
is substantially outweighed by the danger of unfair
prejudice, confusion, or delay.” LVL XIII Brands, Inc.
v. Louis Vuitton Malletier S.A., 209 F. Supp. 3d 612, 636
(S.D.N.Y. 2016). “[B]oth Rule 702 and 403 require the
court to look at the cumulative effect of all of the flaws in a
survey.” Malletier v. Dooney & Bourke, Inc., 525 F. Supp.
2d 558, 596 (S.D.N.Y. 2007); see also Mastercard Int’l
Inc. v. First Nat’l Bank of Omaha, Inc., No. 02-cv-3691
(DLC), 2004 U.S. Dist. LEXIS 2485, 2004 WL 326708,
at *10 (S.D.N.Y. Feb 23, 2004) (excluding a survey based
upon the cumulative effect of flaws in the methodology that
“diminish[ed] its relevance in predicting actual confusion
. . . such that the potential for the Survey’s results to
prejudice unfairly, to confuse, and to mislead the jury
substantially outweighs any limited relevance”). Moreover,
“a survey may be kept from the jury’s attention entirely
by the trial judge if it is irrelevant to the issues.” Starter
Corp. v. Converse, Inc., 170 F.3d 286, 297 (2d Cir. 1999).
The Buncher Survey’s flaws are manifold. Putting
aside the significance of Buncher’s apparently inaccurate
description of the sample population, the self-administered
questionnaire uses only three of the 37 images at issue in
this litigation - H5 (Hinton), M1 (Posada), and 01 (Electra)
- without providing an adequate explanation as to how
those three images were selected or specifically how they
were representative of the other 34 images.
More importantly, however, Buncher failed to provide
survey takers with an opportunity to indicate lack of
knowledge or an instruction for participants not to guess fatal defects where the questions themselves are confusing

75a
Appendix B
and misleading. See Malletier v. Dooney & Bourke, Inc.,
525 F. Supp. 2d 558, 596 (S.D.N.Y. 2007) (“[C]onsumer
confusion surveys should be designed to discourage
guessing.”) (citing cases). Question 9.4 is illustrative of
this defect. It asks respondents to indicate which of the
following statements they believed to be true: “The models
might participate in some of the events described in the
advertising” or “The models would not participate in some
of the events described in the advertising.” Golaszewski
Decl. Ex. S, ECF No. 80-3 at 136. 86% of respondents
answered that the models “might participate in some of
the events described in the advertising” — despite the
fact that none of the advertisements actually describe
any events. Without the opportunity to indicate a lack of
knowledge or understanding of the question, respondents
were forced to choose between two statements with the
same flawed premise. 8
The Buncher Survey also includes questions with
undefined terms that are inscrutable without further
explanation. Questions 9.3 and 9.5, for example, ask
respondents about the “lifestyles” either “reflected in the
advertising” or “to which the Clubs are oriented,” without
any explanation as what the term “lifestyle” referred to.
Id.

8. An additional issue with Question 9.4 is that “might
participate” and “would not participate” are not opposing statements.
Respondents who believed that the models were unlikely to
participate in whatever events the survey is referring to would be
forced to answer “might participate” even if they believed there was
merely a small chance that the models may participate.

76a
Appendix B
Most importantly, the questions in the Buncher
Survey are not directed at the relevant issues in a false
endorsement claim. That more than 90% of respondents
believed that the models agreed to promote the Clubs
or be in the advertisements may demonstrate that the
advertisements are impliedly false, but do not speak to
recognition or endorsement. See Golaszewski Decl. Ex.
S, ECF No. 80-3 at 145. Other survey results purporting
to show how effective the use of plaintiffs’ images were
at arousing interest in the Clubs also miss the mark.
The degree to which a generic model’s appearance in
an ad increases a consumer’s interest in the Clubs is
not the issue; rather, the issue is whether respondents
recognized plaintiffs or understood their appearances to
be endorsements of the Clubs’ goods or services.9
Buncher himself concedes that his survey demonstrates
that the identity of the model is “not a significant factor”
or “a critical variable so long as she is a -- an attractive
woman and in an attractive outfit, and is just as - used in
the same manner as some models that the clubs use that
aren’t even involved in the case.”10 Declaration of Peter
9. Buncher’s focus on the effectiveness of the advertisements is
curious in light of the undisputed fact that the Clubs did not garner
any additional profits from the use of plaintiffs’ images in their
advertisements. Defs.’ 56.1 Stmt. ¶ 192.
10. Notably, of the 636 responses to the open-ended prompts in
questions 2 and 3 of the survey (“What is the first thing that comes
to mind [looking at these three advertisements]?” and “What else
comes to mind?”), only one included an identification of a plaintiff
appearing in the ads (Electra in image 01). That same respondent was
clearly unfamiliar with either Hinton or Posada, as he incorrectly
identified one of the two as Paris Hilton. See Golaszewski Decl. Ex.
S, ECF No. 80-3 at 159.

77a
Appendix B
Shapiro Ex. B (“Buncher Tr.”) at 57:9-14; 59:8-10, July 5,
2018, ECF No. 97-4.
The concession by Buncher undermines plaintiffs
litigative position since the identity of the endorser is a
“significant factor” and “critical variable” in assessing
likelihood of consumer confusion in a false endorsement
claim. Because the Buncher Survey is methodologically
flawed and not probative of the relevant issues, we
grant defendants’ motion to strike the report, survey,
and testimony of Martin Buncher. Given the absence
of a survey or anecdotal evidence supporting actual
confusion, we find that the “evidence of actual confusion”
factor strongly favors defendants. See Sports Auth., Inc.
v. Prime Hosp. Corp., 89 F.3d 955, 964 (2d Cir. 1996)
(“[T]he absence of surveys is evidence that actual
confusion cannot be shown.”).
c. 	Evidence of Bad Faith
Third, we consider evidence that the imitative mark
was adopted in bad faith, looking to “whether defendant in
adopting its mark intended to capitalize on plaintiff’s good
will.” EMI Catalogue P’ship v. Hill, Holliday, Connors,
Cosmopulos Inc., 228 F.3d 56, 66 (2d Cir. 2000). As it is
undisputed that defendants never specifically requested
the use of any of the plaintiffs’ images in their promotional
material, it is clear that defendants did not intend to
capitalize on plaintiffs’ good will. Defs.’ 56.1 Stmt. ¶ 211.
Moreover, plaintiffs fail to offer evidence creating a
genuine issue of fact as to whether defendants knew or
had reason to know that their third-party contractors did

78a
Appendix B
not have the rights to use the images at issue. See Pls.’
56.1 Stmt. ¶¶ 80, 88-91; Pls.’ 56.1 Response ¶ 212. Thus,
this factor also weighs in favor of defendants.
d. 	Other Factors
The final three factors favor plaintiffs. Defendants do
not dispute that the advertisements at issue include the
likenesses of the plaintiffs. See Jackson, 9 F.Supp.3d at
358 (discussing the “similarity of the marks” factor in a
false endorsement action). To the extent that proximity
of the products is relevant in a false endorsement action,
see Beastie Boys, 66 F.Supp.3d at 456, defendants concede
that the plaintiffs and the Clubs are in the related fields of
“selling” womens’ appearances. 11 Defs.’ Opp. Br. 5, ECF
No. 90. Finally, the nature and cost of the product (alcohol)
coupled with the environment in which it is served, suggest
that the Clubs’ consumers are fairly characterized as
impulse driven and unsophisticated vis a vis the Clubs’
offerings. See Star Indus., Inc. v. Bacardi & Co., 412
F.3d 373, 390 (2d Cir. 2005) (“A court is entitled to reach
a conclusion about consumer sophistication based solely
on the nature of the product or its price.”).
e. 	Balancing
Ultimately, the likelihood of confusion analysis in
this case turns on whether plaintiffs are sufficiently
11. Defendants argue that while the parties are in related
fields, they are not “competitors” in that field. But courts “have long
recognized that the parties need not be in actual competition with
each other when the claim is based on false affiliation or sponsorship.”
Jackson, 9 F. Supp. 3d at 358-59.

79a
Appendix B
recog n i zable such that thei r appea rance in the
advertisements is likely to confuse consumers. Even
making all inferences in defendants’ favor, plaintiff
Electra has established sufficient recognizibility. For that
reason, and taken together with the Court’s analysis of
the other Polaroid factors, we grant plaintiffs’ motion for
summary judgment as to Electra’s Lanham Act claim and
deny defendants’ cross-motion.
Conversely, the remaining plaintiffs have failed to
demonstrate sufficiently strong marks and no reasonable
juror could find that the use of their images in the Clubs’
advertisements is likely to cause consumer confusion. The
Court therefore denies plaintiffs’ motion for summary
judgment with respect to the Lanham Act claims of all
other plaintiffs and grants defendants’ cross-motion.
3. 	Lanham Act Injunctive Relief
Having established a likelihood of consumer confusion,
plaintiff Electra is entitled to injunctive relief under the
Lanham Act. See Allen, 610 F. Supp. at 630. The Court
permanently enjoins defendants from using Electra’s
image in any of their promotional content without Electra’s
permission.
4. 	Lanham Act Damages, Fees, and Costs
Plaintiff Electra also seeks actual damages based on
the fair market value of her image. See 15 U.S.C. § 1117(a).
“Plaintiffs normally have a greater burden in attempting
to establish entitlement to damages for violation of section

80a
Appendix B
43(a): They must establish actual consumer confusion or
deception resulting from the violation.” PPX Enterprises,
Inc. v. Audiofidelity Enterprises, Inc., 818 F.2d 266,
271 (2d Cir. 1987). Plaintiffs may also show “that the
defendant’s actions were intentionally deceptive thus
giving rise to a rebuttable presumption of consumer
confusion.” George Basch Co. v. Blue Coral, Inc., 968
F.2d 1532, 1537 (2d Cir. 1992); see also Beastie Boys, 66
F. Supp. 3d at 458 (holding that “reckless disregard does
not suffice” to prove intentional deception for purposes
of Lanham Act damages). For the reasons stated above,
plaintiffs failed to proffer evidence of either bad faith or
actual consumer confusion. We therefore deny plaintiffs’
motion for summary judgment for Lanham Act damages
and grant defendants’ cross-motion.12 Plaintiffs motion
for an award attorney fees under 15 U.S.C. §§ 1117(a) fails
for the same reason. Conopco, Inc. v. Campbell Soup Co.,
95 F.3d 187, 194 (2d Cir. 1996) (permitting a prevailing
plaintiff to recover attorney fees under the Lanham Act
only “on evidence of fraud or bad faith”). Finally, plaintiffs
move for costs under the Lanham Act. See 15 U.S.C.
§ 1117(a). The Court maintains “a wide field of equitable
discretion” in determining whether to award a party costs.
5 McCarthy on Trademarks and Unfair Competition
§ 30:107 (5th ed.). Here, where both parties’ motions were
granted in part and denied in part, both sides should bear
their own costs.

12. It follows that we also deny plaintiffs’ request for treble
damages.

81a
Appendix B
C. 	New York Civil Rights Law §§ 50-51 Claim
Plaintiffs’ second cause of action is predicated on
NYCRL § 51, which provides that any person whose
image is used within the state of New York for advertising
purposes without their written consent may maintain
an action for equitable relief, actual damages, and
exemplary damages. In order to succeed on such a claim,
plaintiffs must prove “(i) usage of plaintiff’s . . . portrait
. . ., (ii) within the state of New York, (iii) for purposes
of advertising or trade, (iv) without plaintiff’s written
consent.” Passelaigue, 2018 U.S. Dist. LEXIS 34004,
2018 WL 1156011, at *5 (citing Molina v. Phoenix Sound
Inc., 297 A.D.2d 595, 747 N.Y.S.2d 227, 230 (1st Dep’t
2002)). Defendants do not contest elements (i) through
(iii). Rather, defendants argue that some of plaintiffs’
claims are barred by the one-year statute of limitations,
that plaintiffs waived their NYCRL § 51 claims when they
signed unlimited releases in connection with the images
at issue, and further that plaintiffs cannot prove damages.
1. 	Statute of Limitations
NYCRL § 51 claims must be brought within one year
from the date that the offending material is first published.
N.Y. C.P.L.R. 215(3); see Nussenzweig v. diCorcia, 9 N.Y.3d
184, 878 N.E.2d 589, 589, 848 N.Y.S.2d 7 (N.Y. 2007).
Plaintiffs do not dispute that Al through A5, D1, D2, J1,
K1, M1 through M5, N1, N2, and 01 were first published
more than one year prior to the filing of the complaint
in this action. See Tr. 18:23-21:14. Accordingly, we grant
defendants’ cross-motion for summary judgment with

82a
Appendix B
respect to these images. The remaining images are B1,
C1, E1, F1, G1-G3, H1-H7, 11-15, and Ll, advertisements
containing images of plaintiffs Lee, Koren, Shake, Mayes,
Hinton, and Golden.
2. 	Releases
The remaining plaintiffs, despite having executed
agreements releasing any and all of their rights to the
images at issue, nevertheless seek to recover damages
for defendants’ use of the images under NYCRL § 51.
Plaintiffs’ releases were comprehensive. They agreed,
in return for compensation, to release “all rights to the
Images . . . without reservation of rights,” Defs.’ 56.1
Stmt. ¶ 123, or “waiv[ing] any claim that [they] may have
at any time to the eventual use to which such Images may
be applied.” Id. at ¶ 38. Thus, they expressly disclaimed
their right to pursue claims relating to these images and
gave releasees the authority to allow third-parties like the
Clubs to use their images in any form and for any purpose
whatsoever, without limitation.
Plaintiffs now ask the Court to either ignore, or read
implied exceptions for NYCRL § 51 claims into, these
otherwise unlimited releases, without citing any New
York caselaw establishing such an implicit exception.13 It is
13. None of the cases cited by plaintiffs involve the execution
of similarly unlimited releases. See Pls.’ Letter, Dec. 2, 2018, ECF
No. 128 (citing Chambers v. Time Warner, 00-cv-2839 (JSR), 2003
U.S. Dist. LEXIS 3065, 2003 WL 749422, (Mar. 5, 2003 S.D.N.Y.)
and Rosemont Enterprises, Inc. v. Urban Sys., Inc., 72 Misc. 2d
788, 340 N.Y.S.2d 144 (Sup. Ct. 1973), aff’d as modified 42 A.D.2d

83a
Appendix B
axiomatic that under New York law “a written agreement
that is complete, clear and unambiguous on its face must
be enforced according to the plain meaning of its terms.”
Greenfield v. Philles Records, Inc., 98 N.Y.2d 562, 780
N.E.2d 166, 170, 750 N.Y.S.2d 565 (N.Y. 2002). Plaintiffs’
releases are crystal clear. Thus, there is no reason not
to enforce plaintiffs’ waivers of “any claim that [they]
may have at any time to the eventual use to which [their
images] may be applied” according to the plain meaning
of those terms. Accordingly, defendants’ cross-motion
for summary judgment with respect to the remaining
plaintiffs’ NYCRL § 51 claims is granted and plaintiffs’
motion is denied.14
3. 	Damages
The remaining plaintiffs have also failed as a matter
of law to prove damages. Plaintiffs proffer Stephen
Chamberlin, an agent in the model and talent industry
since 1989, as an expert on ascertaining the fair market
value of each image at issue. Chamberlin purports to
determine the price at which willing buyers and sellers of
the images would agree to transact. Golaszewski Decl. Ex.
U, ECF No. 80-3 at 219. To this end, and for each plaintiff,
544, 345 N.Y.S.2d 17 (1st Dep’t. 1973)); Tr. 10:3-17 (citing Grodin v.
Liberty Cable, 244 A.D.2d 153, 664 N.Y.S.2d 276 (1st Dep’t 1997)).

14. Although we need not reach it, this case raises an interesting
question regarding whether plaintiffs’ releases amount to “written
consent” for purposes of NYCRL § 51. Suffice it to say that it
is inconsistent with NYCRL § 51 for plaintiffs that have signed
unlimited releases to rely on the absence of written consent in
pursuing damages under that statute.

84a
Appendix B
Chamberlin (1) briefly summarizes plaintiff’s background;
(2) indicates reliance on the same general categories of
documents; (3) reproduces the images at issue; and (4)
summarily concludes that “Based on [his] experience
and expertise in this industry, when negotiating a rate
of compensation for [plaintiff he is considering] for the
identified images used by Defendant, at a minimum, I
would quote an established working day rate of [$X].”
Chamberlin then multiplies the working day rate by the
number of images and the “usages” of images, ultimately
finding total damages for the remaining plaintiffs of
$555,000. Id. at 221.
At the outset, we emphasize that Chamberlin’s
underlying assumption that the remaining plaintiffs
are entitled to receive the “fair market value” of images
that they already sold is deeply flawed. These plaintiffs
negotiated with a willing buyer and were paid the fair
market value for any and all rights to the images. To allow
plaintiffs to be compensated a second time would be a
clear windfall. Put another way, any theory of damages
based upon the faulty notion that plaintiffs - as opposed to
releasees - would be the willing sellers in a hypothetical
transaction is fundamentally suspect.
Second, Chamberlin fails to specify what documents,
testimony, or research he relies upon in reaching his
conclusions - an issue of particular concern here, where
the undisputed evidence in the record makes clear that
none of the plaintiffs (with the possible exception of
Electra) ever earned fees of the magnitude described
in the Chamberlin Report. In response to defendants’

85a
Appendix B
motion to strike, Chamberlin supplements his report with
a declaration attaching copies of specific agreements that
he claims support his calculation of plaintiffs’ working day
rates. Declaration of Stephen Chamberlin (“Chamberlin
Decl.”) ¶ 40, ECF No. 120. But, tellingly, Chamberlin
mischaracterizes many of these agreements in such a way
as to deceptively bolster their significance. Chamberlin
Decl. ¶ 40. For example, Chamberlin concludes that Lee’s
working day rate would be, at a minimum, $25,000, based
in part on the fact that Lee had “entered into agreement
in which she was paid $25,000 for a one-day shoot for
Playboy.” Id. (emphasis added). But, as is readily apparent
from the face of the agreement, Lee was paid $25,000 for
much more than a “one-day shoot,” including, inter alia,
additional photoshoots, film sessions, and up to 20 days of
promotional appearances. Chamberlin Decl. Ex. A, ECF
No. 120-1 at 9-10. The appropriate conclusion from the
contract is that Lee’s rate for a one-day photoshoot would
be substantially less than $25,000.15 Another example is
Chamberlin’s citation to agreements between Koren and
“Cashmere Hair” that value Koren’s services (which, like
Lee’s Playboy contract, go above and beyond a one-day
shoot) at $50,000 and $25,000. Id. at 29. Chamberlin also
neglects to disclose that Koren owns Cashmere Hair. Pls.’
56.1 Stmt. ¶ 24. What Koren pays herself for her image
cannot be the foundation for a reliable calculation of fair
market value.
Chamberlin also improperly assumes that separate
licenses would have been agreed upon for each use of an
15. As described infra, Lee’s undisputed day rate was, in fact,
$2,000.

86a
Appendix B
image, rather than the issuance of a single license for all
uses of each image. Id. Chamberlin uses this assumption
as a basis for multiplying each models’ working day
rate by the number of distinct usages, which increases
his calculated damages nearly four-and-a-half times.
Chamberlin himself concedes that there is generally
“one license and one payment,” Chamberlin Decl. ¶ 19,
and although he argues that this payment would include
charges for different types of usages, it does not follow and is indeed contradicted by the evidence in the record16
- that a model’s fees are properly calculated by multiplying
their working day rate by the number of distinct usages.
The unreliability of Chamberlin’s methodology is laid
bare when comparing the damages in the Chamberlin
Report with what plaintiffs were actually paid for their
images or photoshoots. While Chamberlin conjures up
damages of $40,000 for plaintiff Koren (based upon two
usages and a $20,000 working day rate), we already know
precisely how much she would have agreed to accept in
exchange for defendants’ use of her image: $500, or eighty
times less than the damages calculated by Chamberlin.
Defs.’ 56.1 Stmt. ¶ 70. This was the amount of consideration
that Koren actually accepted in exchange for allowing the
releasee to use the images “for any purpose whatsoever,
without further compensation to me.” Declaration of
Peter Shapiro Ex. 11, July 9, 2018, ECF No. 111-26 at 7.
Plaintiff Shake was also paid $500 in exchange for all of
her rights to her image at issue - 60 times more than what
16. For example, Chamberlin’s approach is difficult to square
with the evidence of plaintiffs allowing releasees unlimited usages
in unlimited forms in exchange for (modest) flat fees.

87a
Appendix B
Chamberlin determines is the image’s “fair market value.”
Defs.’ 56.1 Stmt. ¶ 81. The $100,000 that Chamberlin
ascribes to defendants’ use of Mayes’ image is nearly twice
the sum of her earned income from modeling for the years
2011, 2012, and 2013, Defs.’ 56.1 Stmt. ¶¶ 95-97, and over
35 times what she was paid to participate in the photoshoot
during which the photograph at issue was taken. Defs.’
56.1 Stmt. ¶ 103. The alleged damages of plaintiffs Hinton,
Lee, and Golden are similarly inconsistent with their prior
fees and earnings.17 Defs.’ 56.1 Stmt. ¶¶ 39, 124, 140-143.
“The Second Circuit instructs district courts to exclude
expert testimony if it is speculative or conjectural or based
on assumptions that are so unrealistic and contradictory
as to suggest bad faith.” LVL XIII Brands, Inc., 209 F.
Supp. 3d at 636 (internal quotation marks omitted) (citing
Zerega Ave. Realty Corp. v. Hornbeck Offshore Transp.,
LLC, 571 F.3d 206, 214 (2d Cir. 2009)). Consistent with
this principal and our discussion of the law governing
the admissibility of experts supra, we grant defendants’
motion to strike the report and testimony of plaintiffs’
proposed expert Stephen Chamberlin. As a result, and
for the reasons stated above, were we required to reach
17. Nor can these wild discrepancies between actual earnings
and contrived damages be explained by “premiums” that plaintiffs
would charge to account for “the embarrassment factor” and the
fact that “businesses would not work with a model who posed for
certain disreputable businesses.” See Chamberlin Decl. ¶¶ 20, 23.
Remaining plaintiffs received any such “premium” when they sold
all of their rights to releasees, and evidently were not so concerned
with embarrassing associations as to negotiate limitations as to who
could use their images in the future.

88a
Appendix B
a decision we would deny plaintiffs’ motion for summary
judgment as to any actual damages to be awarded under
NYCRL § 51 and grant defendants’ cross-motion.
D. 	New York General Business Law § 349 Claim
Plaintiffs also assert claims under NYGBL §349,
which prohibits “[d]eceptive acts or practices in the
conduct of any business, trade or commerce or in the
furnishing of any service in this state.” N.Y. Gen. Bus.
Law § 349(a). The elements of a deceptive trade practices
claim under NYGBL § 349 are: “(1) the act or practice was
consumer-oriented; (2) the act or practice was misleading
in a material respect; and (3) the plaintiff was injured as
a result.” Spagnola v. Chubb Corp., 574 F.3d 64, 74 (2d
Cir. 2009). Although it is now well-established that a nonconsumer may bring a claim under NYGBL § 349, “the
gravamen of the complaint must be consumer injury or
harm to the public interest.” Stadt v. Fox News Network
LLC, 719 F. Supp. 2d 312, 319 (S.D.N.Y. 2010).
The overwhelming majority of courts in this Circuit
have concluded that “the general variety of consumer
confusion that is the gravamen of [a false endorsement]
claim” is an insufficient harm to the public interest for
purposes of NYGBL § 349. See Mayes v. Summit Entm’t
Corp., 287 F. Supp. 3d 200, 206 (E.D.N.Y. 2018) (collecting
cases); see also Nomination Di Antonio E Paolo Gensini
S.N.C. v. H.E.R. Accessories Ltd., No. 07-cv-6959 (DAB),
2009 U.S. Dist. LEXIS 117368, 2009 WL 4857605, at
*8 (S.D.N.Y. Dec. 14, 2009) (requiring “a specific and
substantial injury to the public interest over and above

89a
Appendix B
ordinary trademark infringement” in order to maintain
a NYGBL § 349 claim) (internal quotation marks omitted);
Kaplan, Inc. v. Yun, 16 F. Supp. 3d 341, 352 (S.D.N.Y.
2014) (“[C]ourts in New York have routinely dismissed
trademark claims brought under Sections 349 and 350 as
being outside the scope of the statutes . . .”).
As plaintiffs’ do not allege an injury to the public
interest above and beyond “the general variety of
consumer confusion,” we deny plaintiffs’ motion for
summary judgment on their NYGBL claims and grant
defendants’ cross-motion.
E. 	Defamation Claim18
Finally, plaintiffs claim that defendants’ publication
of the images at issue “constitutes a representation that
plaintiffs [were] either employed by one or more of the
Clubs, that they endorsed one or more of the Clubs, or that
they had some affiliation with one or more of the Clubs,”
and that this representation is defamatory. SAC ¶ 149.
To prove a claim for defamation, a party must show:
“(1) a written defamatory statement of fact concerning the
18. Like claims brought under NYCRL § 51, the statute of
limitations for defamation claims is one year and is governed by
the single publication rule. See Osmers v. Parade Publications,
Inc., 234 F. Supp. 924 (S.D.N.Y. 1964). For this reason, we reach
the same conclusion as we did in our statute of limitations analysis
under NYCRL § 51, and grant defendants’ cross-motion for summary
judgment with respect to images A1 through A5, D1, D2, J1, K1, M1
through M5, N1, N2, and 01.

90a
Appendix B
plaintiff; (2) publication to a third party; (3) fault (either
negligence or actual malice depending on the status of the
libeled party); (4) falsity of the defamatory statement; and
(5) special damages or per se actionability (defamatory
on its face).” Celle v. Filipino Rep. Enters. Inc., 209 F.3d
163, 176 (2d Cir. 2000).
Plaintiffs’ motion for summary judgment fails at the
first element. There is no quarrel that “a threshold issue
for resolution by the court is whether the statement alleged
to have caused plaintiff an injury is reasonably susceptible
to the defamatory meaning imputed to it.” Levin v.
McPhee, 119 F.3d 189, 195 (2d Cir. 1997) (citing James v.
Gannett Co., 40 N.Y.2d 415, 353 N.E.2d 834, 837-38, 386
N.Y.S.2d 871 (N.Y. 1976)). If, however, the statements
are reasonably susceptible to multiple meanings, some of
which are not defamatory, “it is then for the trier of fact,
not for the court acting on the issue solely as a matter of
law, to determine in what sense the words were used and
understood.” Celle, 209 F.3d at 178. As one interpretation
of the alleged defamatory statements - indeed, the most
likely interpretation is that plaintiffs had simply agreed
to appear in the advertisements for a standard modeling
fee, we must deny plaintiffs’ motion for summary judgment
as to the defamation claim.
The third element of a defamation claim — fault —
requires the Court to grant defendants’ cross-motion for
summary judgment on the defamation claim. Plaintiffs do
not dispute that they are “public figures” for purposes of
their defamation claim. Tr. 23:18-22; see Celle, 209 F.3d
at 177. A public figure who sues for defamation must show

91a
Appendix B
that the allegedly defamatory material was published with
“actual malice — that is, with knowledge that it was false
or with reckless disregard of whether it was false or not.”
New York Times Co. v. Sullivan, 376 U.S. 254, 280, 84 S.
Ct. 710, 11 L. Ed. 2d 686 (1964) (internal quotation marks
omitted); see also Don King Prods., Inc. v. Douglas, 742
F. Supp. 778, 782 n.4 (S.D.N.Y. 1990) (applying the “actual
malice” standard to a defamation suit brought against a
non-media defendant).
In analyzing actual malice at the summary judgment
stage, “the question is whether the evidence in the
record could support a reasonable jury finding either
that the plaintiff has shown actual malice by clear and
convincing evidence or that the plaintiff has not.” Kipper
v. NYP Holdings Co., 12 N.Y.3d 348, 912 N.E.2d 26, 29,
884 N.Y.S.2d 194 (N.Y. 2009) (internal quotation marks
omitted). The inquiry is a subjective one, and requires
facts demonstrating that defendants “in fact entertained
serious doubts as to the truth of [their] publication or acted
with a high degree of awareness of probable falsity.” Id.
(internal quotation marks and citation omitted). For the
reasons described supra in our discussion of defendants’
alleged bad faith, there are no such facts in the record.
At worst, the evidence shows that defendants failed
to investigate the status of their or their contractors’
rights to use plaintiffs’ images, which in and of itself is
insufficient as a matter of law to prove actual malice. See
Lerman v. Flynt Distrib. Co., 745 F.2d 123, 141 (2d Cir.
1984).

92a
Appendix B
III. CONCLUSION
Plaintiff’s motion for summary judgment is granted
and defendants’ cross-motion for summary judgment is
denied as to plaintiff Electra’s Lanham Act claim. The
Clubs are permanently enjoined from using Electra’s
image in any of their promotional material without
Electra’s permission. Plaintiffs’ motion for summary
judgment is denied and defendants’ cross-motion for
summary judgment is granted as to all other claims for
relief. Defendants’ motion to strike the reports, survey,
and testimony of plaintiffs’ proposed experts is granted
in its entirety. The Clerk of Court is respectfully directed
to terminate the motions pending at ECF Nos. 79, 94, 95,
96, and 101 and close this case.
SO ORDERED.
Dated: 	New York, New York
January 3, 2019
/s/ Naomi Reice Buchwald		
NAOMI REICE BUCHWALD
UNITED STATES DISTRICT
JUDGE

93a
AppendixOF
C REHEARING OF
APPENDIX C — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE SECOND CIRCUIT, DATED APRIL 15, 2021
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Docket No: 19-235
At a stated term of the United States Court of Appeals
for the Second Circuit, held at the Thurgood Marshall
United States Courthouse, 40 Foley Square, in the City of
New York, on the 15th day of April, two thousand twentyone.
CARMEN ELECTRA, TIFFANY TOTH, GEMMA
LEE, JESSA HINTON, JESSE GOLDEN, LINA
POSADA, SHEENA LEE WEBER, HEATHER RAE
YOUNG, RACHEL KOREN, SABELLA SHAKE,
URSULA MAYES,
Plaintiffs-Appellants,
v.
59 MURRAY ENTERPRISES, INC., DBA NEW
YORK DOLLS GENTLEMEN’S CLUB, JAY-JAY
CABARET, INC., AAM HOLDING CORPORATION,
DBA PRIVATE EYES GENTLEMEN’S CLUB,
Defendants-Appellees.

94a
Appendix C
ORDER
Appellants, Carmen Electra, Jesse Golden, Jessa
Hinton, Rachel Koren, Gemma Lee, Ursula Mayes,
Lina Posada, Sabella Shake, Tiffany Toth, Sheena Lee
Weber and Heather Rae Young, filed a petition for panel
rehearing, or, in the alternative, for rehearing en banc.
The panel that determined the appeal has considered the
request for panel rehearing, and the active members of the
Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/

